<html>
<title> - THE DC OPPORTUNITY SCHOLARSHIP PROGRAM: KEEPING THE DOOR OPEN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





     THE DC OPPORTUNITY SCHOLARSHIP PROGRAM: KEEPING THE DOOR OPEN

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HEALTH CARE, DISTRICT OF
               COLUMBIA, CENSUS AND THE NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2011

                               __________

                            Serial No. 112-5

                               __________

Printed for the use of the Committee on Oversight and Government Reform




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
67-175 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Health Care, District of Columbia, Census and the 
                           National Archives

                  TREY GOWDY, South Carolina, Chairman
PAUL A. GOSAR, Arizona, Vice         DANNY K. DAVIS, Illinois, Ranking 
    Chairman                             Minority Member
DAN BURTON, Indiana                  ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
SCOTT DesJARLAIS, Tennessee          CHRISTOPHER S. MURPHY, Connecticut
JOE WALSH, Illinois











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2011....................................     1
Statement of:
    Chavous, Kevin, chairman of the Black Alliance for Education 
      Options; Dr. Patrick Wolf, professor and 21st century chair 
      in School Choice, Department of Education Reform at the 
      University of Arkansas; Betty North, principal and ceo of 
      the Preparatory School of DC; and Dr. Ramona Edelin, 
      executive director of the DC Association of Public Charter 
      Schools....................................................    63
        Chavous, Kevin...........................................    63
        Edelin, Ramona...........................................    88
        North, Betty.............................................    84
        Wolf, Patrick............................................    70
    Holassie, Ronald, senior at Archbishop Carroll High School 
      and DC OSP recipient since the 6th grade; Lesly Alvarez, 
      8th grade student at Sacred Heart School, and DC OSP 
      recipient; Sheila Jackson, mother of an OSP student, 
      Shawnee, who is in the 10th grade at Preparatory School of 
      DC; and Latasha Bennett, single mother of two, Nico 
      receives an opportunity scholarship, while Nia was one of 
      the 216 students whose scholarship was retracted; however, 
      through donations her family receives, Nia is able to 
      attend the same school as her brother......................    29
        Alvarez, Lesly...........................................    34
        Bennett, Latasha.........................................    45
        Holassie, Ronald.........................................    29
        Jackson, Sheila..........................................    39
Letters, statements, etc., submitted for the record by:
    Alvarez, Lesly, 8th grade student at Sacred Heart School, and 
      DC OSP recipient, prepared statement of....................    36
    Bennett, Latasha, single mother of two, Nico receives an 
      opportunity scholarship, while Nia was one of the 216 
      students whose scholarship was retracted; however, through 
      donations her family receives, Nia is able to attend the 
      same school as her brother, prepared statement of..........    47
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................   106
    Chavous, Kevin, chairman of the Black Alliance for Education 
      Options, prepared statement of.............................    66
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   111
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, various letters.........................     4
    Edelin, Dr. Ramona, executive director of the DC Association 
      of Public Charter Schools, prepared statement of...........    90
    Holassie, Ronald, senior at Archbishop Carroll High School 
      and DC OSP recipient since the 6th grade, prepared 
      statement of...............................................    31
    Jackson, Sheila, mother of an OSP student, Shawnee, who is in 
      the 10th grade at Preparatory School of DC, prepared 
      statement of...............................................    41
    North, Betty, principal and ceo of the Preparatory School of 
      DC, prepared statement of..................................    86
    Wolf, Dr. Patrick, professor and 21st century chair in School 
      Choice, Department of Education Reform at the University of 
      Arkansas, prepared statement of............................    72

 
     THE DC OPPORTUNITY SCHOLARSHIP PROGRAM: KEEPING THE DOOR OPEN

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                  House of Representatives,
Subcommittee on Health Care, District of Columbia, 
                 Census, and The National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m., in 
room 2154, Rayburn House Office Building, Hon. Trey Gowdy 
(chairman of the subcommittee) presiding.
    Present: Representatives Gowdy, Gosar, Burton, McHenry, 
Walsh, Davis, Norton, Clay, and Murphy.
    Staff present: Robert Borden, general counsel; Molly Boyl, 
parliamentarian; Drew Colliatie, staff assistant; John 
Cuaderes, deputy staff director; Howard A. Denis, senior 
counsel; Adam P. Fromm, director of Member liaison and floor 
operations; Linda Good, chief clerk; James Robertson, 
professional staff member; Laura L. Rush, deputy chief clerk; 
Peter Warren, policy director; Jeff Wease, deputy CIO; Ronald 
Allen, minority staff assistant; Carla Hultberg, minority chief 
clerk; Lucinda Lessley, minority policy director; William 
Miles, minority professional staff member; Suzanne Sachsman 
Grooms, minority chief counsel; Donald Sherman, minority 
counsel; and Mark Stephenson, minority senior policy advisor/
legislative director.
    Mr. Gowdy. Welcome to our committee. This is a hearing on 
the DC Opportunity Scholarship Program: Keeping the Door Open.
    The committee will come to order and I will read the 
mission statement of the Oversight Committee, which reads as 
follows: We exist to secure two fundamental principles: first, 
Americans have a right to know that money Washington takes from 
them is well spent and, second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Reform Committee is to protect these rights. Our 
solemn responsibility is to hold government accountable to 
taxpayers because taxpayers have a right to know what they get 
from their government. We will work tirelessly in partnership 
with citizen watchdogs to deliver the facts to the American 
people and bring genuine reform to the Federal bureaucracy. 
This is the mission of the Oversight and Government Reform 
Committee.
    Just so our panelists and audience can know, we will have a 
couple of opening statements, and then we will swear the 
witnesses and go into the testimony. And on behalf of all of 
us, thank you for being here.
    Consensus is not always easy to find in the world in which 
we live, but I am confident that all of us in this room, 
regardless of political persuasion, agree on the value of 
education. I can testify from firsthand experience about the 
magic and power of education and its ability to transform not 
just a single life, as important as that is, but also to 
transform generations of lives.
    My parents grew up in a small farming town in South 
Carolina. My mother's grandfather was a sharecropper. My 
mother's father had a sixth grade education. My father is the 
first male to attend college in his family, and he did so by 
getting up at 4 a.m., and rolling newspapers and delivering 
them because he dreamed of going to college. And he saved all 
of his money and he went and took all the math and science 
classes he could take at the University of South Carolina and 
then, when the money ran out, he went to medical school. So 
when I tell folks back home that my father is a medical doctor, 
but he is not a college graduate, they don't believe me, but it 
is true.
    My father realized that education was his only ticket to a 
better life, and because of his sacrifices he changed not only 
his own life, but the life of my three sisters and me, and 
generations to come. And I have been continually reminded of 
the power of education in my professional life as a prosecutor. 
Along with my friends in law enforcement, I have seen almost 
every form of crime imaginable. The one constant in those 16 
years of being a prosecutor is the inextricable link between 
education, or a lack thereof, and crime.
    Yesterday I had the pleasure of meeting with your chief of 
police in the District of Columbia for the second time, but it 
was a more extended meeting; a wonderful person. I am very 
impressed with the department. And what they were doing was 
coming up with a crime reduction strategy for the District of 
Columbia, and I could not help but think, during that meeting, 
that the best crime reduction strategy of all is a high school 
diploma.
    So we are here to evaluate the District of Columbia's 
Opportunity Scholarship Program and, in my judgment, the 
evidence proves beyond a reasonable doubt the value and the 
efficacy of this program. The parents overwhelmingly approve of 
the Opportunity Scholarship Program. They are engaged, they are 
involved, and they feel vested. Students approve of the 
program, as evidenced by the fact that demand outpaces supply 
four to one. Parents value the discipline and learning 
environment afforded by the Opportunity Scholarship Program. 
Student performance is up both generally, as evidenced by the 
higher graduation rates, and more particularly as evidenced by 
their reading scores.
    Parents value the choices afforded by this program. They 
don't want to be told their choices are limited because their 
bank accounts are limited. What is good enough for the highest 
ranking officials in our country should be good enough for 
everyone. Even the U.S. Department of Education once lauded the 
Opportunity Scholarship Program as an example of a program that 
is working, before someone or something told them to think 
otherwise.
    The residents of the District of Columbia overwhelmingly 
want choices with respect to the education of their children. 
The Opportunity Scholarship Program may not be the answer for 
every student, and this bill acknowledges that by providing 
ample funding to the public school system, the charter school 
system, as well as the Opportunity Scholarship Program. But the 
Opportunity Scholarship Program has been successful in the eyes 
of the participants, and it is frankly beyond comprehension how 
there could be opposition to a program that parents like, 
students want, that produces results, and does nothing to 
detract from other educational resources.
    The most compelling piece of evidence in support of this 
program is the personal testimony of the students and the 
parents. I have listened as students and parents alike have 
vouched for this program as a lifesaver and a dream maker. It 
is one thing to remind parents and children that their income 
levels are low. I will not be the one to tell them that their 
dreams are too high.
    With that, I would yield to the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Let me, first 
of all, congratulate you on your selection as the chairman of 
this important subcommittee and I look forward to working and 
building a very positive relationship with you as we carry out 
the subcommittee's work. And while I intend to keep my remarks 
somewhat brief this morning so that I can share some of the 
time with Congresswoman Norton, I appreciate the chairman's 
inaugural hearing on a topic that I care so deeply about and 
have spent such a great deal of my life focused on, and that is 
the issue of public education.
    I would also like to ask unanimous consent that the 
statements of the National School Boards Association, the 
National Coalition for Public Education, Americans United for 
Separation of Church and State, the American Association of 
School Administrators, the American Civil Liberties Union, and 
the American Association of University Women in Opposition to 
H.R. 471 be included in the record.
    Mr. Gowdy. Without objection, they will be made part of the 
record.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Davis. Thank you very much, Mr. Chairman. I was 
intrigued, as I listened to you in your opening comments, 
because I too, like your father, grew up in rural America, went 
to a one-room school where one teacher, Ms. B.D. King, taught 
eight grades plus what we called the little primer and the big 
primer, all at the same time. So I share your commitment to 
education.
    However, as a staunch supporter of public education, I am 
not in favor of escalating private school vouchers at this time 
because what they mean to me is that fewer taxpayer dollars for 
traditional schools will be reduced or diminished. However, I 
am in favor of improving education across the board so that 
every child in the District of Columbia would have optimal 
opportunity to have the kind of experience, educational 
experience, that would prepare him or her for everything that 
they would want to be, do, and accomplish in life.
    Improving public education in the District of Columbia is 
in the rest of the Nation's, has been, and will remain a long 
and difficult climb. The Federal Government has played a 
critical role in providing the District schools with badly 
needed funding since 2004. The city deserves recognition for 
prioritizing, turning around its schools, and for the 
improvements it has made. For this reason, I do feel that it 
would have been helpful for the committee to have heard from 
the mayor of the city and other elected leaders on this 
important topic.
    I commend the students and parents here today for their 
advocacy of expanded educational opportunities and for your 
personal commitment to getting the best education that you can 
for yourselves and for your children. However, I am concerned 
that there are no parents of students here to advocate for the 
public schools. Families from those schools also have wonderful 
stories to tell about exceptional teachers and successful 
innovative teaching practices. Allowing Federal dollars to fund 
private schools diverts attention and resources away from 
private schools that educate the vast majority of students in 
our country.
    If we have limited Federal dollars for education, we should 
focus on fixing the public schools that are not performing well 
and aiding their students rather than undermining those schools 
by syphoning not only off scarce Federal dollars, but in some 
instances the mix of students who would add to the dimension 
and opportunities of acquiring a great education for all.
    With that said, Mr. Chairman, I would like to reserve the 
balance of my time to be added to that of Representative Norton 
when she has a time to make her remarks.
    Mr. Gowdy. Thank you, Mr. Davis.
    The Chair would recognize the gentlelady from the District 
of Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I appreciate my very good conversation with Chairman Gowdy 
when I learned that the chairman had not received two requests 
I left with his office on Friday to call me after Mayor Vincent 
Gray was denied the courtesy that has always been given to the 
mayor of the District of Columbia, whatever party controlled 
the Congress and, for that matter, to most busy, highly placed 
public officials whose time is charged to the taxpayers. I also 
learned that Chairman Gowdy did not make the decision 
concerning the appearance of Mayor Gray.
    What was gained by denying the mayor's two separate 
attempts to get small changes that would have enabled them to 
testify here today except to make it impossible for him to 
testify as a minority witness against the bill before us, or if 
he did testify, to try to humiliate him and to disrespect his 
office? Instead of the courtesy of a routine accommodation by 
being placed early enough to be heard, the mayor was offered 
the option of being the last witness on a panel with his 
constituents, with no guarantee that he could be heard early 
enough to get back to urgent city business he had offered to 
push back for a reasonable period.
    In 20 years of service in the Congress, I have never seen 
any highly placed public official treated so shabbily. The 
discourteous response to our mayor's request was inconsistent 
with past practice of this committee and its subcommittees. It 
was offensive, petty, and beneath the dignity of any committee 
of the Congress.
    I knew that this response could not have come from the new 
chairman. At Chairman Gowdy's request, I took him to Mayor 
Gray's office just 2 weeks ago and he and the mayor had a very 
cordial meeting. Considering Mayor Gray's respect for Chairman 
Gowdy, I know that the mayor wants to put this matter behind 
him so that he can continue the cordial relationship that began 
when Chairman Gowdy visited the mayor's office. I ask unanimous 
consent that the mayor's statement concerning this bill be 
entered into the record of today's hearing.
    Mr. Gowdy. Without objection, it will be made part of the 
record.
    [The referenced information follows:]
    [Note.--No insert/information provided.]
    Ms. Norton. Thank you, Mr. Chairman.
    I want to be clear that my remarks today are addressed to 
my colleagues, not to my constituents who desire better 
education. I too am a mother, and I cannot blame any parent for 
taking advantage of any educational opportunity that comes your 
way. Although I am a proud graduate of the D.C. public schools 
and strongly support our public schools, I have always 
supported public charter school alternatives for those parents 
who are dissatisfied with our traditional public schools. 
Children cannot wait until public schools, now in the throws of 
a race to the top, meet the necessary standards.
    This is true even though the D.C. public schools have made 
impressive strides by any measure. For example, notwithstanding 
the many improvements the D.C. public schools must make, the 
National Assessment of Education Progress, which recently 
measured math progress in the Nation's public schools, found 
the D.C. public schools to be the only schools in the Nation to 
improve average math scores at both fourth and eighth grade 
levels by at least 5 points.
    However, the Department of Education's final report on the 
Opportunity Scholarship Program did not report the results we 
are seeing in the District's chosen alternatives to our 
traditional public schools, our public charter schools. The 
Department of Education's report found ``no conclusive evidence 
that the Opportunity Scholarship Program affected student 
achievement as measured by standardized reading and mathematics 
tests.''
    Yet, this program was established precisely to measure the 
difference between the academic performance of students in the 
lowest performing public schools and those in the private 
school program. Unlike the private schools, our public charter 
middle and high schools, with a majority of economically 
disadvantaged students, scored almost twice as high as their 
D.C. public school counterparts in math and reading, and the 
graduation rate of charter schools in the District is 24 
percent higher than the graduation rate of the public high 
schools and 8 percent higher than the nationwide graduation 
rate.
    Yet, our public charter schools have a significantly higher 
percentage of African-Americans and of disadvantaged children 
than our D.C. public schools. Of particular importance, unlike 
our private schools, D.C. public schools are fully accountable 
to the public in measures of performance and in every activity. 
Both public and public charter schools can and have been closed 
when acceptable standards have not been met. D.C. public 
charter schools, on average, have a remarkable record, but they 
are quick to concede that not all of them meet high standards.
    However, with this record of the D.C.'s own public charter 
schools, not a couple thousand students, but almost 28,000 
students in these schools with this record, why would Congress 
target the District of Columbia for private school vouchers? 
Moreover, the continuing focus on private school vouchers 
exclusively for the District of Columbia comes despite a 
compromise that allows every D.C. student now in the program to 
be funded until graduation from high school. That compromise, 
in turn, followed a prior compromise to extend the program 2 
years beyond the authorized 5-year cutoff date.
    What is before us today is the startup of a brand new 
program for new children, and, again, only in the District of 
Columbia. The single-minded focus on public funding of private 
schools only in the District raises many questions. If my 
Republican colleagues believe private school vouchers are so 
important, why haven't they used the experiment here in the 
District to offer a national bill on the floor, allowing school 
districts that might choose vouchers? Could it be that the 
majority is influenced by State referenda on vouchers, all of 
which have been lost by voucher performance? Could it be that 
the Republican majority has read the national polls showing 
that the American people overwhelmingly oppose public funding 
of private schools?
    If the Republican majority is truly concerned about 
alternatives to public education, why are they not expanding 
funding for public charter schools which have a large 
congressional bipartisan majority both in the House and the 
Senate? The inescapable conclusion is that the Republicans 
believe they can indulge their personal and ideological 
preferences with impunity here in the District, a risk they are 
unwilling to take in their own districts with private school 
vouchers.
    The Republicans did not consult the District's elected 
officials before introducing a bill to startup a new voucher 
program. Yet, the desperate budget situation in the District 
has put most in the council in a position of appearing to 
reverse their position against vouchers that they previously 
took in letters to me when D.C. residents mounted one of the 
largest protests during my----
    I ask unanimous consent to complete my remarks.
    Mr. McHenry. Reserving the right to object. How much longer 
does the gentlelady expect to talk?
    Ms. Norton. The gentlelady expects to talk only about a 
minute longer.
    Mr. McHenry. I ask unanimous consent for one additional 
minute.
    Mr. Gowdy. One additional minute.
    Ms. Norton. I thank the gentleman. There is a history to 
this, and I appreciate it.
    I was speaking of the reversal of some members of the 
council on the position they previously took opposing vouchers 
in letters to me at a time when a huge demonstration was 
mounted here in the Congress by residents against imposing 
vouchers on the District. They can hardly be blamed for this 
change of mind. They certainly know that it would do very 
little good to lobby the House for any new funding for the home 
rule choice of our parents for independent public school 
alternatives.
    However, this is exactly what Speaker Newt Gingrich did. 
When he first mentioned private school vouchers to me, I told 
him of public opposition to vouchers in the city, but not to 
public charter schools.
    Thank you, Mr. Chairman. I am going to use my time to 
question witnesses to complete my statement. I think this is 
important history for people to understand.
    Mr. Gowdy. Yes, ma'am. You are welcome to do that.
    We will now go to the testimony, and it is my pleasure to 
introduce the panel. I will introduce the panel in whole, and 
then we will start with you, Mr. Holassie, and go in that 
order. How is that? Does that sound good?
    All right, we are pleased to have Mr. Ronald Holassie, who 
is a senior at Archbishop Carroll High School and a District of 
Columbia Opportunity Scholarship Program recipient since the 
sixth grade.
    To his left and our right is Ms. Lesly Alvarez. She is an 
eighth grader at Sacred Heart School and a D.C. Opportunity 
Scholarship Program recipient.
    Ms. Sheila Jackson is the mother of an OSP student, 
Shawnee, who is in the 10th grade at Preparatory School of 
District of Columbia.
    And Ms. Latasha Bennett is a single mother of two children, 
Nico received an Opportunity Scholarship Program, while Nia was 
one of the 216 students whose scholarship was retracted. 
However, through donations her family receives, Nia is able to 
attend the same school as her brother.
    Welcome to all four of you and, Mr. Holassie, we will 
recognize you for your 5 minute opening statement.
    Before we do that, because it is a policy of the committee 
to swear the witnesses, we will ask you to rise and lift your 
right hands.
    [Witnesses sworn.]
    Mr. Gowdy. Let the record reflect all witnesses answered in 
the affirmative. You may be seated and, Mr. Holassie, you may 
begin.

  STATEMENTS OF RONALD HOLASSIE, SENIOR AT ARCHBISHOP CARROLL 
  HIGH SCHOOL AND DC OSP RECIPIENT SINCE THE 6TH GRADE; LESLY 
 ALVAREZ, 8TH GRADE STUDENT AT SACRED HEART SCHOOL, AND DC OSP 
 RECIPIENT; SHEILA JACKSON, MOTHER OF AN OSP STUDENT, SHAWNEE, 
   WHO IS IN THE 10TH GRADE AT PREPARATORY SCHOOL OF DC; AND 
    LATASHA BENNETT, SINGLE MOTHER OF TWO, NICO RECEIVES AN 
OPPORTUNITY SCHOLARSHIP, WHILE NIA WAS ONE OF THE 216 STUDENTS 
WHOSE SCHOLARSHIP WAS RETRACTED; HOWEVER, THROUGH DONATIONS HER 
 FAMILY RECEIVES, NIA IS ABLE TO ATTEND THE SAME SCHOOL AS HER 
                            BROTHER

                  STATEMENT OF RONALD HOLASSIE

    Mr. Holassie. Chairman Gowdy and members of the committee, 
thank you for the opportunity to speak to you today.
    My name is Ronald Holassie. I have served as D.C.'s Deputy 
Youth Mayor for Legislation for 2 years. I am now a senior at 
Archbishop Carroll High School.
    My journey with the Washington, DC, Opportunity Scholarship 
Program began 6 years ago, when I was 13. I was raised in a 
single parent household with my mother and younger brother. I 
faced many challenges in the public school system. I attended 
various D.C. public schools during elementary school. 
Altercations with other students and a lack of academic 
achievement resulted in me switching to different schools 
around D.C. But it seemed that I was faced with the same 
problems at each new school.
    Then 1 day my mother saw an ad for the D.C. Opportunity 
Scholarship Program. She quickly applied, and soon after I was 
accepted and given a scholarship to attend any private school 
of our choice in D.C. My mother now had a chance to send me to 
a school she knew would fit me best. The scholarship covered 
tuition, books and my uniform. My mother saw it as a blessing 
and an answer of prayer from God for her child. She always 
wanted me to have a quality education.
    When I received my scholarship, I was so far behind that 
the school asked me to repeat the sixth grade. The first few 
months were very different, as the expectations and standards 
were much higher. The discipline in the school was also much 
stricter. Adjusting to the new school wasn't easy; it took 
time. I had to catch up and get on the academic level I needed 
to be on and fulfill the expectations of the new school. But it 
all didn't happen that fast. It took some years and hard work 
and dedication. There was a transition stage that I had to 
undergo. It took some time to adjust to the new standards and 
expectations, but I soon adjusted well.
    When I entered high school, I was quite nervous and didn't 
really know what to expect. Being at Archbishop Carroll High 
School shaped me academically, shaped me to perform 
academically with my greatest potential. As I am now a senior 
at Archbishop Carroll High School finishing up my last year, I 
am ready to take on the world and new opportunities. I credit 
the D.C. Opportunity Scholarship Program for my success.
    This program has worked, is still working, and will 
continue to work. It is a must to reauthorize the D.C. 
Opportunity Scholarship Program. Everyone deserves a choice and 
should have the right of school choice and opportunity. As I 
said before unto the U.S. Senate ``public schools did not get 
bad overnight and they are not going to get better overnight.'' 
So we need to take action now and have a program installed to 
give children a quality education such as the D.C. Opportunity 
Scholarship Program. Reauthorization of the D.C. Opportunity 
Scholarship Program is critical. We should always have options, 
and this program is an option for parents and students.
    Looking back, I can see throughout the past years I have 
evolved so much and at the same time dealt with many obstacles. 
As a young child, many challenges came before me in which I had 
to undergo hardships and persevere. Through all the pain, 
suffering, and tears, I am still standing. Not just standing 
but standing strong ready to take on the world and achieve much 
more.
    As a young man, I see a future ahead of me and a vision of 
a successful life. I feel as if all these years served as 
preparation for the real world. I am now confident that I can 
go out into the world and make something out of my life, and 
that I will not only impact people here in the United States, 
but around the world.
    I made it this far and nothing can stop me now from 
succeeding. Not a single voice or action of opposition can stop 
my success, nor the success of thousands of children who have 
the opportunity to choose a school that is best for them.
    It is not just about me and my story, as I am now a senior, 
months away from graduating. I am here for not only myself and 
the students currently enrolled in the D.C. Opportunity 
Scholarship Program, but the thousands of children who have not 
been given the same opportunity.
    I am here to fight for quality education and have the D.C. 
Opportunity Scholarship Program reauthorized, as it needs to 
be. I am a product of this program, a successful result. The 
D.C. Opportunity Scholarship Program has provided the education 
that has shaped me into being the intelligent, ambitious, 
person that is in front of you all now. The results of the D.C. 
Opportunity Scholarship Program are certainly life-changing. 
Now being a young adult, taking on my own responsibilities, I 
have certainly been greatly influenced by this program. I can 
look back and credit this program for my success.
    It's not just what this program does academically, but it 
is how it impacts an individual's life through education. Thank 
you.
    [The prepared statement of Mr. Holassie follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gowdy. Thank you, Mr. Holassie.
    Ms. Alvarez, we will recognize you for your opening 
statement.

                   STATEMENT OF LESLY ALVAREZ

    Ms. Alvarez. Hi, Chairman Gowdy. Hello, Ranking Member 
Davis and members of the committee. Thank you for inviting me 
to tell my story today.
    My name is Lesly Alvarez. I am an eighth grade Opportunity 
Scholarship student. I live at home with my mother, father, and 
brother. At home, we speak Spanish and English. English is my 
second language; I learned it while attending Sacred Heart 
School. Both languages are taught at Sacred Heart because it is 
a bilingual school. In fact, it is the only bilingual Catholic 
school in all of D.C.
    Sacred Heart is a very special and unique place. My 
classmates and I represent a lot of different countries, for 
example: El Salvador, Mexico, Nicaragua, Cameroon, Barbados, 
Dominican Republic, Puerto Rico, and Vietnam. Also, we share 
different religious backgrounds. There are Catholic and 
Buddhist students and there are Protestant students like me. 
The common thread between us all is that we are all learning to 
be responsible citizens of our school community and the greater 
community. My teachers are very proud of me for testifying on 
behalf of our school community today.
    I am very involved in my school. A minimum of 20 hours of 
community service is needed in order to graduate eighth grade. 
I only have 2 hours left. My favorite subject in school is 
Language Arts. I love it so much because there is reading 
involved. I am able to grasp the material quickly and connect 
stories to my life.
    I am definitely planning on attending college in my future. 
I am sure that I want to make something out of my life and be 
successful. I am interested in studying law. I think I would be 
a good lawyer because I am a persuasive arguer and fight for 
what I believe in. The main reason why I find interest in law 
is because I like defending people and I stand up for justice.
    One of my favorite books is En Busca de Milagros. In 
English this translates as ``In Search of Miracles.'' I am 
reading this book right now in my Spanish class. It is so 
powerful and has changed the way I looked at my life and my 
future.
    I connect with the main character, Milly, short for 
Milagros, in a couple of ways. The first way is that we are 
both searching for something. Being an adopted child, Milly is 
searching for knowledge of her past. Being an Opportunity 
Scholar, I am searching for knowledge for my future. The 
Opportunity Scholarship Program has been a miracle for me and 
hundreds of other students like me. Milly wants to know where 
she comes from. I want to know where I am going. With my 
scholarship, I know I will go far.
    Milly and I have one more thing in common: we are young and 
a lot of people tell us that we are too young to overcome the 
obstacles set in front of us. Milly's successful story showed 
me that I should just keep working to get through the 
obstacles. I know I cannot change the minds of the adults who 
doubt the value of the Opportunity Scholarship Program. But, 
like Milly, I know that I need to work hard every day to 
overcome my obstacles and demonstrate the value of my 
scholarship so that more kids like me can receive it too.
    There are a couple of ways that Milly and I are different. 
First, Milly finds only two adults who help support her on her 
journey. I have more than two people helping me. I have my 
parents and teachers. I know that Cardinal Wuerl is supportive 
of me and there are many Members of Congress, like Speaker 
Boehner and Senator Lieberman, who support me in this program.
    The second way we are different is that it took Milly until 
the middle of her story to learn she could not control the 
world around her and that she just needed to take control of 
her actions and be really dedicated to get her miracle. In my 
case, I feel like I am still in the beginning of my life story. 
I still have a lot of years of education ahead of me in order 
to achieve my dreams. But, unlike Milly, I will not wait to 
take control of my actions until later. I am taking control 
today by testifying.
    Milly's miracle comes to her because eventually her work 
leads her to learn about her past. The miracle that I am 
searching for today is that the Opportunity Scholarship Program 
be reauthorized. I know other kids will enjoy their scholarship 
as much as I have.
    My name is Lesly Alvarez and I am en busca de un milagro. 
Thank you.
    [The prepared statement of Ms. Alvarez follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gowdy. Thank you, Ms. Alvarez.
    We will recognize Ms. Jackson for her 5 minute opening 
statement.

                  STATEMENT OF SHEILA JACKSON

    Ms. Jackson. Chairman Gowdy, members of the committee, 
thank you for the opportunity to speak before you today.
    I am a single parent of two. I have a 15-year-old daughter 
who is and has been a recipient of the Opportunity Scholarship 
for 6 years.
    I was educated in the south and experienced racism 
firsthand. I attended segregated schools until I began high 
school. I prayed that when I became a mother my child or 
children would never have to experience racism on the level I 
did.
    As a young girl, I remember waking in the middle of the 
night to screaming neighbors because a cross was burning on 
their lawn. I also have memories of being told that I could not 
use the restroom in public buildings while out shopping with my 
mother because I was not the appropriate skin color; watching 
the Ku Klux Klan parading in our neighborhood just because they 
could. The list goes on. But, in spite of all the racial 
negativity surrounding me, I vowed that I would not let it 
hamper my growth and that, when I had children, I would provide 
the best I could and that they would have the best education 
possible.
    In spite of all my efforts, my daughter now faces another 
form of segregation: to segregate her from attending a school 
of my choice and that is best suited for her just because some 
politicians feel that my child and many others who are 
currently recipients of the Opportunity Scholarship do not 
deserve the quality education their children receive. Why? 
That's a question we parents would all like an answer to. I am 
disabled and I live on a fixed income. If this program is not 
reauthorized, it would be impossible for me to pay tuition to 
the private Christian school my daughter currently attends. The 
Opportunity Scholarship Program has been the difference to her 
having to attend schools that are not safe and are still 
underperforming to her attending a school that meets her needs 
and where I know she is safe. My daughter attended D.C. public 
schools through fourth grade. I was not pleased with the 
overcrowded classrooms, teachers having to share teacher aides, 
purchase school supplies with their own money, children so 
unruly the police had to be called because they were a threat 
to the rest of the student body.
    During her fourth grade year I had taken as much as I 
could. She was struggling in math and her teacher was not 
willing to do anything outside of her plan to help my daughter. 
We went back and forth, with her teacher accusing me of trying 
to run classroom. She blatantly told me that if my daughter did 
not get it, then she was sorry. I agreed with her that she was 
sorry if she was not willing to do what she was there for, to 
educate the students in her charge. I was determined that I 
would not allow this school system to fail my child, and I knew 
that if she continued in the D.C. public school system that 
would surely be the case. The school she attended was an 
underperforming school, as were most of the schools in my ward. 
I requested a meeting with the principal and that meeting was 
granted.
    In attendance were her teacher, the principal and myself. 
After hearing from her teacher and myself, he was in agreement 
with me that her teacher was not doing enough to help my 
daughter. I learned about tutoring options for low income 
families under the No Child Left Behind Program. I applied for 
my daughter and she was accepted.
    After an assessment of her by the tutor, it was discovered 
that she was intimidated by math. Ms. Johns her tutor, who is 
currently a professor at the University of Oklahoma, worked 
with my daughter through the remainder of the school year. 
There was a tremendous improvement in her math grades.
    That was her last year in the D.C. public school system. 
During that year, I learned about and applied for the 
Opportunity Scholarship and Shawnee was accepted. She is now a 
sophomore in high school attending The Preparatory School of 
D.C., an honor roll student, and making plans for college.
    Not only has the Opportunity Scholarship provided me a 
choice for my daughter, but also for thousands of other 
parents. I stand today asking that the Opportunity Scholarship 
Program be reauthorized and be opened to new students as well.
    My motto is simple ``Walk Good and Journey Safe,'' that our 
children will continue to be afforded the opportunity to have a 
good walk through their education and all their educational 
journeys be safe. Thank You.
    [The prepared statement of Ms. Jackson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gowdy. Thank you, Ms. Jackson.
    The Chair will recognize Ms. Bennett for her 5 minute 
opening statement.

                  STATEMENT OF LATASHA BENNETT

    Ms. Bennett. Good morning, Chairman Gowdy and members of 
the committee and supporters. Thank you for allowing me to 
share my family's story regarding the need to continue the D.C. 
Opportunity Scholarship Program and for it to be reauthorized.
    My name is LaTasha Bennett. I am a 39-year-old single 
parent of two very intelligent children. My son Nico Thomas, 
here today, is 9 years old and attends Naylor Road Private 
School, where he is in the fourth grade and he is excelling. My 
daughter Nia Thomas is 6 years old and she also attends Naylor 
Road, thanks to generous private donations which we have truly 
been blessed to receive. Without these donations, I do not know 
where my daughter would be going to school. I am currently 
unemployed due to a disability. I worked from the age of 14 
until the year 2000, when I became disabled. Because of the 
inability for me to work, the D.C. Opportunity Scholarship 
Program has been a true blessing for myself and my son and our 
family.
    Nico is thriving academically in his school and loving it. 
The students in Nico's class get more hands-on from the teacher 
because there are only nine students in his class. Students are 
given so much more attention and they learn twice as much in 
their class. I don't want to see my son's dreams of becoming a 
doctor washed down the drain because he is forced to attend a 
school that does not meet his needs.
    I applied for the scholarship for Nia so she could attend 
Naylor Road School for the 2009-10 school year. I had received 
a letter of authorization granting Nia a scholarship and I was 
so elated. Then, a month or two later, a retraction letter 
came. It was like a nightmare. I was appalled. I felt a bit of 
injustice not only to my daughter, but to all of the other 
children as well. I felt like the system had failed my baby 
before she had been given a chance to even begin her dreams. I 
was totally devastated and angry that my child was denied an 
opportunity to attend the school along with her brother, a 
school where she would be safe and get a quality education. Why 
shouldn't my child be given the same opportunity as your 
children to get the best education possible? Is my child not 
worthy of getting what so many of our ancestors fought for 
years ago?
    My daughter has dreams of being a famous dancer and singer, 
and I motivate her dreams because as long as she has a dream, 
there is a chance for a good future. I want Nia to have the 
same opportunity to excel well as her brother. In the same way 
that she has big dreams to excel, I want that also for other 
students. Nia is so looking forward to going to college in the 
future. She continues to ask me, ``Mom, will I go to my school 
with my brother next year?`` I use to answer her and tell her 
yes. Now I don't know what will I tell her. I know that I 
cannot count on private donations to send her to Naylor Road 
for the remainder of her time in school. But I look at my child 
and see she is so happy that I can't bring myself to express 
doubt. I believe you, Chairman Gowdy, and the members of this 
committee know how it feels when your child is so happy that 
their little face lights up and you can't bring yourself to 
cause that light to go out. We are looking to those of you who 
have power to continue this program and assure that our 
children have the opportunity to get the type of education they 
deserve.
    Without the D.C. Opportunity Scholarship Program, I pray 
daily that I will have peace of mind to know, because I don't 
know where I will truly send my daughter to school. I know for 
certain it will not be any schools in my area. I have seen what 
happens to the children in neighborhood that fall through the 
cracks. I lost my nephew to a neighborhood school. I will not 
lose my children, when they are so bright and willing to learn 
and be productive citizens. Please allow my children to 
continue this opportunity through the Opportunity Scholarship 
Program to have a bright and better future by continuing this 
program.
    Education is the No. 1 priority, besides God, in my 
household, and by reauthorizing the D.C. Opportunity 
Scholarship Program, so many parents and children like myself 
will have hope for a better future. Thank you.
    [The prepared statement of Ms. Bennett follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gowdy. Thank you, Ms. Bennett.
    I will recognize myself for 5 minutes for questions, and I 
want to start by saying what I am sure most of the people in 
the room know, but it may bear amplification, which is the D.C. 
Opportunity Scholarship Program does not take one red cent from 
the D.C. public school system; and to argue otherwise is 
disingenuous at best. This is not an argument about whether or 
not we are going to fund all three layers of the D.C. school 
system; it is about whether we are going to give the same 
choice to poor folk that rich folk have.
    So against that backdrop, let me ask Mr. Holassie and Ms. 
Alvarez to do what is sometimes hard even for adults to do, 
which is imagine circumstances are different. I want you to 
imagine if there were no D.C. Opportunity Scholarship Program. 
Do you have friends whose lives have taken a different path 
because they didn't have the same opportunities you did? We 
will start with you, Mr. Holassie, then we will go to you, Ms. 
Alvarez.
    Mr. Holassie. Yes, absolutely. Some of my friends that 
actually went back into the public school system completely 
change. Some of them are on the street; some of them don't 
really know what colleges they are going to. Some haven't even 
applied to college. So it is a big difference.
    Mr. Gowdy. Ms. Alvarez.
    Ms. Alvarez. Yes. I had some friends that used to go to 
Sacred Heart with me, but now they attend public school, and 
they just don't know what to do. Some haven't even applied to 
high school. So it is just sad.
    Mr. Gowdy. Ms. Jackson and Ms. Bennett, if I understood 
your testimony correctly, it was that if you were persons of 
means, if money were not an issue in life, you would choose to 
go to the private schools that your children are going to. Is 
that correct?
    Ms. Jackson. That is correct for me, sir. I firmly believe 
that it should be a choice of where I send my daughter to 
school, where I feel it is safe for her, where her educational 
needs are met. And right now, where she is, I feel that 
everything she needs is met there; she is safe. I don't worry 
about her during the day, whether a fight is going to break out 
or whether the police will have to be called. I am very 
comfortable with the environment that she is in.
    Mr. Gowdy. Ms. Bennett.
    Ms. Bennett. Likewise. I also am, as you asked, if it had 
not been for the funding, I am totally approved and I am 
appreciated of this school that I chose, that I had the 
opportunity to choose for my children, for one, because of the 
safety, because of the teachers' commitments to teach the 
children, and the grades that my children are getting. I 
brought today, for an example, Nia, being she had donations, 
made all As in the first grade and is writing in cursive, which 
I know we started like in third grade. And if I had the funds, 
I would pay for a better education for my child, but I don't.
    Mr. Gowdy. So the only reason that Ms. Jackson and Ms. 
Bennett are here, you have already made the choice in your 
mind. If you were people of means, you wouldn't have to come 
before a congressional committee and ask for this program.
    Ms. Bennett. Not at all.
    Mr. Gowdy. Can you fashion any reason why poor folk or folk 
who are not wealthy enough to attend private school on their 
own should have fewer choices than rich folk?
    Ms. Bennett. I don't see any reason why not, because I 
think that our children should be able to get the same 
education and allowed the same education, be it that we are 
poor or not. We just can't afford to give our children that 
education. And if most people empathize that are wealthier and 
put theirselves in our shoes, I believe that they would think 
differently to reauthorize this program.
    Mr. Gowdy. Mr. Holassie, you are pleased with your 
educational experience?
    Mr. Holassie. Yes, I am.
    Mr. Gowdy. Ms. Alvarez, you are pleased with your 
educational experience?
    Ms. Alvarez. Yes, I am.
    Mr. Gowdy. Ms. Jackson, you are pleased with your 
children's educational experience?
    Ms. Jackson. Yes, I am, sir.
    Mr. Gowdy. Ms. Bennett, you are pleased with your 
children's educational experience?
    Ms. Bennett. I am pleased with Nico. I ask and pray that 
you all reauthorize because I can't guarantee donations for 
Nia's continued. But I am pleased that both of them are on the 
honor roll.
    Mr. Gowdy. You are pleased with the environment from a 
safety and security and environment conducive of learning? You 
are pleased with that aspect of your school?
    Ms. Bennett. I am pleased with every aspect of the school 
that we chose.
    Mr. Gowdy. Ms. Jackson.
    Ms. Jackson. Yes, I am, sir. I am pleased as well that the 
school she currently attends has a family atmosphere. They not 
only care about the education of the students, but they are 
helping to groom those boys and girls into young men and women, 
and I am very pleased with that.
    Mr. Gowdy. Ms. Alvarez, you are pleased?
    Ms. Alvarez. Yes, I am. I feel safe in my school.
    Mr. Gowdy. Mr. Holassie, you are pleased?
    Mr. Holassie. Yes, I am, as my principal, Dr. Stofa, 
enforces every day to have a safe environment for us all.
    Mr. Gowdy. The Chair would recognize the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Let me thank all four of you for your tremendous comments 
and statements. I seriously appreciate them.
    Ms. Jackson and Ms. Bennett, both of you indicated that 
there is a serious difference between the schools that your 
children currently attend and the schools that they attended 
earlier. Could you share with us what those differences are?
    Ms. Jackson. Yes, Mr. Davis. The last school my daughter 
attended in the D.C. public school system was McGogney 
Elementary School, which is in Ward 8, where we were living at 
the time. We actually lived next door to the school, so I had a 
full view of the outside activity, not knowing what was going 
on on the inside. Being disabled, I was at home a big portion 
of the day and often would see police cars pulling into the 
parking lot, which would give me great fear because I did not 
know what was going on with the student body inside. And this 
happened on a daily basis.
    The school that she is currently attending and the school 
that she previously attended before her current school were 
both private Christian schools. When I leave her or when she 
leaves me in the morning and she steps into the school, I don't 
worry. I know that her educational needs are going to be met; I 
know that she is going to be safe. I know that if anything 
happens, that I will be contacted to know that maybe she has 
fallen and had an accident. I didn't get that in the D.C. 
public school system. She would come home on numerous days 
saying that someone had taken something from her. She was 
afraid to say anything to the student for fear of being beaten 
up. So there is a big difference in the education she has had 
over the past 6 years and the first 4 years of her education in 
the D.C. public school system.
    Mr. Davis. Ms. Bennett.
    Ms. Bennett. OK, I can say Nico only had 1 year experience 
in public schools, and that 1 year he went to Clark Elementary, 
which was in Ward 4, which we had lived at that moment. And I 
was pregnant with my daughter. I was a high-risk pregnancy; 
therefore, I was unable to work. And I was one of those apron 
string moms and I frequently went up to Nico's school, which he 
was in pre-K, and I can honestly say every entrance to the 
school, be it the side entrance, because his class was 
accessible to the outside, their playground, the doors were 
open. I would go through just to see.
    And one time I even drove up to the school and parked on 
the side, and the students were actually on the playground by 
themselves just because a door was open to their classroom. And 
after that I had several questions for the teachers why Nico 
wasn't learning more than what he had learned at home. They 
couldn't give me any answers, and I wanted more for my child 
and I took him out of the public school.
    Mr. Davis. Let me ask you are the same children going to 
the same schools? Are the children that your----
    Ms. Bennett. My two children?
    Mr. Davis. Yes.
    Ms. Bennett. Yes. They both attend Naylor Road. Only Nia 
does through donations that I won't be able to----
    Mr. Davis. Are any of the students who attended their prior 
school also attending this school?
    Ms. Bennett. Not to my knowledge.
    Mr. Davis. Ms. Jackson, do you know if any of the same 
children are attending with your child?
    Ms. Jackson. Children from D.C. public schools?
    Mr. Davis. Yes.
    Ms. Jackson. No, there aren't.
    Mr. Davis. And so the schools that your children currently 
attend, are they much smaller?
    Ms. Bennett. Smaller classes, yes.
    Ms. Jackson. Yes.
    Mr. Davis. Are the students perhaps more selective?
    Ms. Bennett. I notice that the students--excuse me. I 
notice that the students are very intelligent from the teaching 
which even my son receives. I notice that, because I did 
volunteer up at their school several times, that a lot of the 
students did come from public schools, and it is the parents 
that chose to take advantage of the opportunity. And the 
classes are smaller, so there is more hands-on teaching.
    Mr. Davis. And you indicated that these are both Christian 
schools, charter Christian?
    Ms. Bennett. My son and Nia go to a private school, it is 
not religious-based.
    Mr. Davis. None of them are charters, they are all private?
    Ms. Bennett. To my knowledge.
    Ms. Jackson. Yes. Their school is a private school.
    Mr. Davis. Thank you. Thank you very much.
    Ms. Jackson. You are welcome.
    Mr. Gowdy. Thank you, Mr. Davis.
    The Chair would recognize the gentleman from Arizona, Dr. 
Gosar.
    Dr. Gosar. Thank you.
    I also come from a State that is struggling with education. 
I am also from rural America, from a town of 1,000. That is 
where I got my education. And I saw what it takes as a 
community to educate. My question to you, Ms. Bennett and Ms. 
Jackson, is why would you find it a problem not to have a 
choice and able to dictating where your child goes to school? 
Do you see a problem?
    Ms. Bennett. I see a problem with not having a choice, 
because that takes away, first of all, my own liberty that we 
are supposed to have to choose, and it is a problem to me to 
not have that choice to choose, because I want what is best for 
my child, just like other people choose to send their children 
where they choose to. It is just that I am not financially fit 
to pay for what I choose, so that is a problem for me.
    Dr. Gosar. Ms. Jackson.
    Ms. Jackson. I agree in whole with Ms. Bennett. I want the 
choice to have my child have a quality education, just as 
wealthy Americans make the choices to send their children to 
private schools that they know are safe, where they are going 
to receive a quality education. I feel my daughter deserves 
nothing less, and I want to continue to have that choice, 
although I am also not financially able to make those payments 
to a private school. But I would like to continue to have the 
choice to send my daughter to a school that works for her.
    Dr. Gosar. Let me continue. Would you look at the public 
education system and say it is a success as it currently is 
right now?
    Ms. Bennett. Honestly, I would say no. Just to be brief, I 
have nephews and a nice that goes to the local school in my 
area, and I frequently go with my sister to the school because 
they are calling almost twice a week or three times a week 
because of incidents that are happening at the school; either 
somebody is trying to beat up my nephew or beat up my niece. 
They are twins. And this is a D.C. public school.
    And I had almost got frustrated with not knowing about the 
Opportunity Scholarship Program continuing that I had almost 
applied to that school, and I sat in there for 30 minutes, and 
after seeing what was going on I honestly left out and left the 
papers on the table, and I said no matter what, if they didn't 
reauthorize this program, I would home-teach my daughter other 
than have her in an environment that is not safe and that--I 
mean, I saw teachers and things that you wouldn't even believe 
happening. And this isn't the first time.
    Dr. Gosar. Ms. Jackson.
    Ms. Jackson. I am just really passionate about this and I 
think that the D.C. public school system is not a bad school 
system, but it needs great improvement, and I believe that at 
this time it would not satisfy me or satisfy the needs of my 
daughter for her to be in the D.C. public school system. As Mr. 
Holassie stated, the school system didn't get that way 
overnight, and it is not going to be fixed overnight; so it is 
going to take a while to get it back to where it should be. I 
believe that the school system could be a great school system 
if all the efforts are put forth and things are done to make it 
better. But right now, no, I don't think it is the school 
system that--well, I know it is not the school system that I 
would want my child in at this time.
    Dr. Gosar. One last point. It seems to me that on education 
there has to be the family input, an important segment that we 
have never really tried to involve in the public school 
district. And with my education everything is results based as 
a doctor. Now, when we look at positive results, could you see 
any way, as a parent, the opportunity for choice gives you the 
opportunity for success in the educational model?
    Ms. Jackson. I believe so. I believe that because of the 
disarray that the D.C. public school system is in and the 
choice that I have chosen and the choice that I have been able 
to take has been a difference in her quality of education, her 
grades. Her grades have greatly improved in the 6-years that 
she has been out of the D.C. public school system, and I just 
know that because of this, that is why her grades are there, 
where she attends school. I know in my heart, in my soul that 
because she was out of the D.C. public school system, that 
these grades that she is making, the career choices that she is 
thinking about are because of the choice of her being in a 
school that cares about what she learns and where she goes in 
her future.
    Ms. Bennett. And I agree with Ms. Jackson. It is evident by 
the report cards that I have here that my children are 
excelling in the school that I chose for them to go to, and I 
was very vigorously searching when I was choosing. And if they 
had not had the opportunity or I had not had the opportunity to 
choose, I don't believe they would be making these same grades 
and as motivated to be what they want they want to be in the 
future.
    Mr. Gowdy. Thank you, Dr. Gosar.
    The Chair would recognize the gentlelady from the District 
of Columbia, Representative Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I want to congratulate the achievements of my young 
constituents, and clearly against the odds. Very proud of you. 
And I want to congratulate the parents, because you are doing 
what parents are supposed to be doing. The most important 
factor in student achievement is passion of the parents for 
that achievement, and I know that well.
    Ms. Jackson, I graduated from segregated schools in the 
District of Columbia. I went to Bruce Monroe Elementary School, 
I went to Banneker, where there was a junior high school, and I 
am a proud graduate of Dunbar High School. Schools then were 
perhaps better. There was a large population here in the 
District of Columbia. I love the D.C. public schools; they are 
doing much better. But you will never find that this 
Congresswoman is an apologist for anything that offers less 
than quality education to our children.
    Mr. Holassie, I am proud that you are about to graduate. I 
hope you know about DCTAG.
    Mr. Holassie. Yes, I do.
    Ms. Norton. All right. DCTAG is the 100 percent funded 
Federal program that allows our youngsters to go to any public 
college anywhere in the United States, and that program has 
doubled college attendance here. And, Mr. Holassie, whether you 
choose a public or private school, anybody that gets you is 
going to get a lot of quality.
    I am going to use the remainder of my time simply to put on 
the record what the record is for this program, and I 
appreciate the time that was given me in my opening remarks.
    I was speaking about Speaker Gingrich, who approached me 
about school vouchers, and I told him of public opposition to 
vouchers in the city but not to public charter schools, as 
demonstrated by fledgling charter school law in the District 
that had attracted only a few charters. The result was Public 
Law 104-134, which included the School Reform Act of 1995, 
passed here in the Congress, that has produced what amounts to 
a large-scale, robust alternative public school system that has 
become a model for the Nation, with almost half of our children 
in attendance. The long waiting lists of our public charter 
schools are the best evidence of their quality and their 
embrace by our parents and residents at the school's own home 
rule choice.
    Our public charter schools are aware both of the need and 
the demand. Why then set up a congressionally sponsored private 
school program for the city? Why, when ours is the only big 
city with both rapidly improving public schools and a model 
alternative public charter school system; why, when the city is 
one of the few jurisdictions in the Nation that has no barriers 
to public school alternatives; why isn't the District of 
Columbia being rewarded with funding to continue to build the 
city's public charter schools and to respond to the waiting 
lists of parents that can't get in, can't enroll their 
students? The answer is power; the same congressional power 
that stripped the city of its vote on the first day of the 
session, that also seeks to reimpose anti-democratic amendments 
on the city in the pending appropriation bills. It is power 
that this power respected D.C. democracy.
    We appreciate congressional interest in our children. We 
ask only for congressional respect for the people of the 
District of Columbia who have built their own alternative to 
our public schools. Any new funding for education in the 
District should reinforce the hard work of our own parents and 
residents who have shown the Nation that they know how to build 
a popular alternative public school system with a dazzling 
variety of public character schools, from the nationally 
resounded Kipp Schools to Hospitality High, from the Latin 
Charter School to the Seed Residential Charter School. D.C. 
residents know what to do without the benefit of congressional 
paternalism, instruction, or intervention.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you.
    The Chair would recognize the gentleman from Illinois, Mr. 
Walsh.
    Mr. Walsh. Thank you, Mr. Chairman.
    And thank you, panel, for coming today. I want you all to 
do me a big favor: put a big smile on your faces. [Laughter.]
    This should be such a happy, happy hearing; and, believe 
me, I have sat in a number of hearings that are not happy. You 
all are a huge success story. You all are, especially you two 
right there, you are the future. You are the future. You are 
the face of education in this country.
    I come from Illinois. In Illinois, we have a new mayor of 
Chicago, Rahm Immanuel. And I think a couple days ago Mr. 
Immanuel was asked where is he going to send his kids to school 
now that he is moving back to Chicago, and I believe his 
answers--and I don't want to get it wrong--was I don't know, it 
could be public, could be private, could be religious, could be 
charter, but that is going to be the decision my wife and I 
make, and I would just ask that you respect that decision. How 
refreshing.
    I want you to do something that might be terribly----
    [Applause.]
    Mr. Walsh. Yes, clap. Do something that the four of you 
might not want to do: pretend you are politicians for a minute. 
Put on your political hats. Try to give me short answers. 
Politicians don't give short answers. Do your best.
    Why do you think it is that there are people in this 
country--think like a politician--that don't want you to have 
this choice? Be brief. Think like a politician. Why is it that 
people don't want to give you that choice? Let's start here.
    Mr. Holassie. What I feel is how could you oppose of such 
program as----
    Mr. Walsh. No, no, Mr. Holassie. With all due respect, that 
is not what I asked.
    Mr. Holassie. Oh.
    Mr. Walsh. But you know what? You are going to make a good 
politician, because you didn't answer the question. [Laughter.]
    I want a straight, direct answer out of you. Why do you 
think it is that there are people who don't want you to have 
this choice? Simple, why?
    Mr. Holassie. Other priorities.
    Mr. Walsh. What? Give me one priority that might come 
before, before your parents having that choice.
    Mr. Holassie. It can be political decisions.
    Mr. Walsh. Political.
    Ms. Alvarez, why do you think there are some people that 
don't want your parents to have a choice.
    Ms. Alvarez. I really don't understand why they wouldn't 
want us to have the choice or my parents to have the choice. I 
don't understand. It is just not a right choice to make to not 
want our parents to put us in a good school.
    Mr. Walsh. Ms. Jackson, be political for me. Come on. Why 
do you think it is there are people that do not want you to 
have that choice, this choice? Come on.
    Ms. Jackson. Honestly speaking, sir, I believe they don't 
even know why, truly, they don't want our children to have the 
same valued and quality education as their children do. It is 
all politics. And if you get right down to it, it stems from 
money.
    Mr. Walsh. Maybe I have asked a bad question. If you had to 
guess, Ms. Bennett, you can start, who doesn't want you to have 
that choice? Who do you think it is that doesn't want you to 
have this choice?
    Ms. Bennett. To me, it is probably the NEA.
    Mr. Walsh. The NEA is who?
    Ms. Bennett. The National Education Association.
    Mr. Walsh. The teachers unions.
    Ms. Bennett. And it is probably the public schools, of 
course, the public school and private school sector; and it is 
the opposers that know that this program works.
    Mr. Walsh. All right, now this is getting a little fun. 
Now, Ms. Bennett, play a game with me. Take the teachers 
unions.
    Ms. Bennett. OK.
    Mr. Walsh. Just think off the top of your head. Why would 
they not want parents to ultimate have choice?
    Ms. Bennett. Because they would choose what is better for 
their kids.
    Mr. Walsh. And if they did that, what might happen?
    Ms. Bennett. They would lose a lot of their jobs because 
they will take them and put them to the private schools and 
take them out of the public schools.
    Mr. Walsh. We are getting somewhere. [Laughter and 
applause.]
    Oh, and I am running out of time.
    If this program succeeds, Ms. Alvarez, if the D.C. 
Scholarship Program succeeds, what will that show people?
    Ms. Alvarez. It will show people that everybody, the kids 
have a future and have something to look forward to.
    Mr. Walsh. Mr. Holassie, who would be afraid of the fact 
that the program might succeed?
    Mr. Walsh. People who are in opposition of this program.
    Mr. Walsh. And our ranking member very eloquently, I 
thought, said that this is an issue all about power, and it is 
about power. I think the nuance that I would add is that when 
it comes to educating our kids, who should have that power. 
Pretty simple question, right? When it comes to educating our 
kids, should it be us up here? Should it be the teachers? 
Should it be the administrators? Should it be the Governor? Who 
should have the power, the power when it comes to deciding 
where a child goes to school? This should be a one-word answer. 
Ms. Bennett.
    Ms. Bennett. The parents.
    Mr. Walsh. Ms. Jackson.
    Ms. Jackson. I agree.
    Mr. Walsh. Ms. Alvarez, who should have that power?
    Ms. Alvarez. I agree with the parents.
    Mr. Walsh. You are not going to dissent, are you, Mr. 
Holassie? [Laughter.]
    He wouldn't dare.
    Mr. Holassie. Parents.
    Mr. Walsh. Thank you. Thank you all four for coming. Thank 
you.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Walsh.
    [Applause.]
    Mr. Gowdy. The Chair would recognize the ranking member of 
the full committee, the distinguished member from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you very much.
    As I listen to the witnesses, I am very impressed and I 
want to thank all of you for being here. And I don't want us to 
be confused by what is happening here today. I think it is a 
disservice to a person like Ms. Holmes Norton for anybody to 
even remotely imply, and for me and for others, that we don't 
want people to have choice. The only way that I am here today, 
as a son of two former sharecroppers with less than a sixth 
grade education, is because of an education. So we get that.
    We also get that this week $890 million from the general 
education budget is going to be slashed. That is real. And I 
think the thing that we confuse is this: Mr. Holassie and Ms. 
Alvarez, we want every single child to have the opportunity 
that you have, every one. We want all 74,000 in D.C. to have 
that. I want them in my community. I live in the inner city of 
Baltimore. I head a school right. Right now I am the president 
of a public school. My daughter went to charter school and I 
was on the board of that charter school for 4 years. That 
charter school started out 10 years ago and now it is one of 
the best schools in the entire city. I sit on the board of the 
Kipp School. I know what can be done when we put our heads 
together to help children achieve.
    So let's not be confused. It is not a question of whether 
folk don't want people to have choices. When it came to my 
daughter going to school, I made sure she got a good education. 
And I applaud you, Ms. Bennett, and I applaud you, Ms. Jackson, 
because we have to be the No. 1 advocates for our children. And 
I have said it many times: our children only have one chance. 
This is their turn. This is their turn to get an education. So, 
I mean, as much as I appreciate the scholarship program, I want 
it for every kid.
    Mr. Holassie, when you were asked the question about what 
happened to some of your friends who may have gone into the 
public schools, stayed in the public schools, I know what you 
are talking about. I live in the inner city. I see every day 
what happens. And you are right, you want a safe environment. 
And you can bet your bottom dollar that most Members of 
Congress, their kids go to school in a safe environment. You 
can bet your bottom dollar that they do have the choices.
    Well, I think that what we should want, all of us, before 
we start cutting $890 million from the education budget, we 
need to be concentrating on how do we make sure that every 
single child is properly educated. The greatest threat to our 
national security in this country is our failure to properly 
educate every single child, every one of them. And when we fail 
to do that, then we have the situation where we have young men 
in Baltimore prisons with less than a sixth grade reading 
level. They look just as sharp and good as you do, sitting 
behind some bars with a hat turned backward and pants hanging 
down. And that is why I applaud you and that is why you all are 
such an inspiration to me and to others to fight for 
opportunity.
    But sadly, in our country, not everybody has all those 
choices, and I am just wondering. You know, I look at the 
charter schools and D.C. has made some tremendous strides. And 
I am not saying that those strides are being made fast enough. 
But I just want to make sure that we don't lose sight of the--
somebody asked the question, said are any of the same kids from 
the private school--I think it was Mr. Davis, from the public 
school now going to the private school, and the answer was no. 
And the fact is that for every one of those children that get a 
chance to go these private schools, there are probably I don't 
know how many, but hundreds of thousands, I guess, maybe 
hundreds, who don't get that chance.
    So if we are going to do anything, we need to be working 
together to make sure that every child has those opportunities 
so that every one can become all that God meant for them to be.
    I yield back.
    Mr. Gowdy. Thank you, Mr. Cummings.
    The Chair would recognize the distinguished gentleman from 
North Carolina, Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman. And thank you and 
congratulations on your first hearing as a subcommittee chair.
    Thank you all for your testimony. I have been able to watch 
part of it on TV and I was in for part of the remainder.
    Mr. Holassie.
    Mr. Holassie. Yes.
    Mr. McHenry. You are a senior?
    Mr. Holassie. Yes, I am.
    Mr. McHenry. Where are you going to college?
    Mr. Holassie. Well, I am waiting for decision letters to be 
mailed back, so----
    Mr. McHenry. Where did you apply to?
    Mr. Holassie. I applied to University of Central Florida, 
University of South Florida, University of Miami, Florida 
Atlantic University, Florida Institute of Technology--
[laughter.]
    A lot of Florida schools. [Laughter.]
    Mr. McHenry. Was it because of Snowmageddon? Was it because 
of all the snow we had last year?
    Mr. Holassie. Somewhat. I just love the environment.
    Mr. McHenry. Well, that is great. So how many colleges did 
you apply to?
    Mr. Holassie. About six or seven. Bethune-Cookman is 
another one I am applying to.
    Mr. McHenry. OK.
    Ms. Alvarez.
    Ms. Alvarez. Yes.
    Mr. McHenry. Where do you want to go to college? I know it 
is a little early, but I bet you know a couple places.
    Ms. Alvarez. I know Mount St. Mary's and, like he said, 
FIU, Florida International. That is a nice school.
    Mr. McHenry. Oh, excellent. Excellent. OK.
    So, Mr. Holassie, so the D.C. Opportunity Scholarship, what 
has it meant to you? Just sum it up for us.
    Mr. Holassie. Life-changing experience. I wouldn't be the 
person that I am right here before you all if it wasn't for the 
D.C. Opportunity Scholarship Program.
    Mr. McHenry. Life-changing?
    Mr. Holassie. Yes. It changed me as an individual, as a 
person.
    Mr. McHenry. Why? Why? Why did it change you? It is just 
money. How does this actually change your life?
    Mr. Holassie. As I stated in my testimony, it is not just 
what this program does academically, but it is how it impacts 
an individual through education. And that is what it has done 
for me.
    Mr. McHenry. OK.
    Ms. Alvarez, you mentioned that you had parental 
involvement that actually made this happen.
    Ms. Alvarez. Yes.
    Mr. McHenry. Are there other folks in your family that have 
been involved in your life and encouraged you?
    Ms. Alvarez. Yes, all of my family; my grandparents, my 
uncles, my aunts. All of my family have always been encouraging 
me to go for my future and make the best out of it.
    Mr. McHenry. Mr. Holassie, is that your same experience, 
others in your family encouraging you?
    Mr. Holassie. Yes. Others in my family certainly encouraged 
me.
    Mr. McHenry. OK, OK. Well, it is interesting because----
    So, Mr. Holassie, when you came in to sixth grade, you said 
you had to repeat sixth grade.
    Mr. Holassie. Yes, I had to because the public school 
system basically failed me. I wasn't successful in the public 
school system.
    Mr. McHenry. Are you now prepared to go to college?
    Mr. Holassie. Yes, I am.
    Mr. McHenry. All right.
    Ms. Alvarez.
    Ms. Alvarez. Yes.
    Mr. McHenry. How long have you been receiving the D.C. 
Scholarship?
    Ms. Alvarez. Since 2004.
    Mr. McHenry. Since 2004. Was that first year----
    Ms. Alvarez. Yes.
    Mr. McHenry [continuing]. Really tough?
    Ms. Alvarez. No, it wasn't.
    Mr. McHenry. I think you are bragging, too.
    Well, you know, not just having your parents involved makes 
such a huge difference, but, Ms. Alvarez, you mentioned that 
Sacred Heart School is the only bilingual Catholic school in 
the D.C. area.
    Ms. Alvarez. Correct.
    Mr. McHenry. How important is it for you to have that 
choice of having a bilingual school?
    Ms. Alvarez. It is important because at the same time I 
don't lose my background of Spanish from where I come from, but 
yet I get the language of English. So I still have both 
languages in my life.
    Mr. McHenry. So I also asked Mr. Holassie this. Ms. 
Alvarez, are you prepared--I asked if he was prepared to go to 
college. Are you prepared to go to high school?
    Ms. Alvarez. Yes, certainly.
    Mr. McHenry. And where are you going to go?
    Ms. Alvarez. I got two acceptance letters, one from St. 
John's and one from Carroll, but I am choosing Carroll.
    Mr. McHenry. You think that is a good choice, Mr. Holassie?
    Mr. Holassie. Yes.
    Mr. McHenry. Thank you for your testimony. I know it is 
tough to sit before this committee and have folks lecture you 
or ask you questions or both, but thank you so much for being 
an advocate for opportunity. Thank you.
    Mr. Gowdy. Thank you, Mr. McHenry.
    The Chair would recognize the distinguished gentleman from 
Connecticut, Mr. Murphy.
    Mr. Murphy. Thank you very much, Mr. Chairman, and, again, 
congratulations on your first hearing.
    Congratulations to all of you, to Mr. Holassie and Ms. 
Alvarez specifically. You have done a wonderful job this 
morning, and it is a reflection on your commitment to not only 
your own education, but the education of all of your friends 
and neighbors. And to Ms. Jackson and Ms. Bennett, I appreciate 
you being here as well.
    Let me just first reassure Ms. Jackson and Ms. Bennett 
there has been some conversation about, given the uncertainty 
right now, over the funding going forward, would there be a 
process in place to make sure that children that are currently 
in the program now would stay in the program; and we have 
gotten assurances from the administration that within the 
debate going on in Congress today that the administration is 
going to do everything in its power to make sure that students 
that are currently in the program will be able to stay. And I 
think many of us will be very interested in continuing that 
conversation.
    Let me just ask a simple question. When we talk about this 
program, this is clearly about continuing your commitment to 
your education, but it is also about making the public school 
system better. That is the argument for this program. And I 
would just be interested in your assessment over the--now, you 
guys have only been in it for a few years, but as parents and 
as advocates, you have been watching this program for a series 
of years. I would be interested as to your assessment as to 
what this program, over the 5-years that it has been in place, 
has meant to the D.C. public school system. Have you seen the 
D.C. public school system get better as a result of this 
program? Simple question. Maybe I will go first to Ms. Bennett 
and Ms. Jackson, then turn it over to you guys, because you 
certainly have friends and neighbors that are still in the D.C. 
public school system. I would be interested as to what you 
think it has meant for that system.
    Ms. Bennett. To be honest, I see the D.C. public school 
system is attempting to try, but to be frankly honest, from 
what I have seen, and this is just a few schools, I can't say 
for all, the few schools in my area, Ward 8, no, they haven't 
gotten better. They are attempting, but no.
    Mr. Murphy. Ms. Jackson.
    Ms. Jackson. I agree as well. In certain wards the schools 
seem to be I don't want to say pushed aside, but they are not 
given as much attention as in schools that would be in the 
wards where the majority of these schools are attended by white 
children. The schools in Ward 7, Ward 8, and some schools in 
Ward 6 are underperforming schools because they don't get the 
attention that they should, and that didn't just happen; it has 
been that way for years. I have lived in both Ward 8 and Ward 
7, and those schools in those wards where my daughter would 
have to attend now are still underperforming schools. So I see 
that the D.C. public school system are making efforts to make 
that system better, but now, as it stands, I still would not 
want my daughter to attend the D.C. public school system.
    Mr. Murphy. How about you guys? When you talk to your 
friends who have been in the public school system, do you get 
the sense that it has gotten better over the last 5 years? Ms. 
Alvarez.
    Ms. Alvarez. I agree with Ms. Bennett and Ms. Jackson. I 
can see that they are trying to make the schools better, but 
they are not really putting their best foot forward to go all 
the way and make them the best that they could be. But they are 
trying.
    Mr. Murphy. Mr. Holassie.
    Mr. Holassie. I agree with Ms. Bennett and Ms. Jackson. It 
seems that they are attempting, they are trying to make the 
public school system better, but it is just not to the 
standards and expectations that it should be at that I would 
say, OK, I would go back into the public school system and I 
would be successful, I would be great.
    Mr. Murphy. Thank you for your comments. The idea, 
obviously, behind a voucher system is that it pressures the 
public school system not just to try, but to actually get 
better in the end. And the reason I asked that question is 
because the theory sometimes doesn't always match up to the 
reality. And as Mr. Cummings so eloquently stated, the public 
school system in this Nation cannot get better, no matter how 
many more vouchers that you put into the system, if they don't 
have the resources to do it, if they don't have the attention 
to the schools and the neighborhoods that need to get better.
    And why it is so maddening for some of us to be in 
Washington today is that while this is, I think, a very, very 
useful debate, in other rooms around this capital we are having 
a debate about sucking billions of dollars out of those very 
schools that we are asking to get better, and it seems an 
impossible situation to put schools across this city and across 
this country in.
    And I really appreciate you guys being here. You have been 
incredibly eloquent and I look forward to the rest of the 
debate.
    Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Murphy.
    And on that I think everyone can agree. We cannot thank you 
enough for your attendance, for your eloquence, as Mr. Murphy 
cited, for your willingness to share your experience with us.
    What I would propose at this point, selfishly, I would like 
to come thank you in person, so we will take a short recess as 
the second panel comes forward, and I will be heading down 
toward you to thank you in person and write notes so you two 
can go back to school if you want to, OK? Thank you. We will be 
in short recess.
    [Recess.]
    Mr. Gowdy. We will now recognize our second panel. I will 
introduce them as a whole, then we will take the oath and begin 
the questioning. Let me welcome you and thank you for not only 
being here, but also for letting the children go first and 
perhaps go back to school, or maybe not.
    Mr. Kevin Chavous is the chairman of the Black Alliance for 
Education Options. Mr. Chavous is also a former D.C. City 
Council member and a former chairman of the Education 
Committee.
    Dr. Patrick Wolf is a professor and 21st Century Chair in 
School Choice, Department of Education Reform at the University 
of Arkansas. Dr. Wolf was the principle investigator for impact 
evaluation of the D.C. Opportunity Scholarship Program through 
a contract with the U.S. Department of Education.
    Ms. Betty North is the principal and CEO of the Preparatory 
School of the District of Columbia.
    Dr. Ramona Edelin is the executive director of the D.C. 
Association of Public Charter Schools.
    Welcome to you all. And I will administer the oath. I would 
ask you to please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Gowdy. Let the record reflect that all witnesses 
answered in the affirmative.
    Thank you, and you may be seated.
    Thanks to all four of you. I will recognize myself for 5 
minutes and then I will recognize Mr. Davis.
    Dr. Edelin, were you present for the first panel?
    Oh, I am sorry. I apologize. If you couldn't tell, it is my 
first one. And if you can't tell yet, you will before it is all 
said and done. So despite my overeagerness to ask questions, we 
really would rather hear from you. So we will start with you, 
Mr. Chavous, and we will go in order from my left to right. 
Thank you.

STATEMENTS OF KEVIN CHAVOUS, CHAIRMAN OF THE BLACK ALLIANCE FOR 
EDUCATION OPTIONS; DR. PATRICK WOLF, PROFESSOR AND 21ST CENTURY 
 CHAIR IN SCHOOL CHOICE, DEPARTMENT OF EDUCATION REFORM AT THE 
 UNIVERSITY OF ARKANSAS; BETTY NORTH, PRINCIPAL AND CEO OF THE 
  PREPARATORY SCHOOL OF DC; AND DR. RAMONA EDELIN, EXECUTIVE 
    DIRECTOR OF THE DC ASSOCIATION OF PUBLIC CHARTER SCHOOLS

                   STATEMENT OF KEVIN CHAVOUS

    Mr. Chavous. Thank you very much, Mr. Chairman and Ranking 
Member Davis and Congresswoman Norton, members of the 
committee. Thank you for giving me the opportunity to testify 
before you today. With your indulgence, I would like to use my 
time this morning to offer some perspective about the 
importance of the D.C. Opportunity Scholarship Program not just 
for District residents, but also as it relates to the national 
fight to ensure that each and every American school child 
receive a high quality education.
    As you mentioned, Mr. Chairman, I served on the Council of 
the District of Columbia for 12 years, and over half of that 
time I chaired the Council's Education Committee. I am proud of 
the fact that during my chairmanship I was able to help usher 
school choice into the District, first by way of charter 
schools and then through the Opportunity Scholarship Program.
    As to the creation of the Opportunity Scholarship Program, 
let me be very clear. Mr. Chairman, this program was not forced 
upon or foisted on the residents of the District of Columbia. I 
know; I was there. The three-sector initiative was a 
collaborative undertaking between the city and the Federal 
Government. We insisted on the three-sector approach, which 
provided equal funding for D.C. public schools, D.C. public 
charter schools, and the OSP. We worked very hard--and when I 
say we, I mean then-Mayor Tony Williams, School Board President 
Peggy Cooper Cafritz, and I--we worked very, very hard to 
develop a program that fit the unique educational needs of the 
District, where not one dime was diverted from public schools. 
Anyone who suggests otherwise is being fundamentally and 
practically dishonest about the history and origin of the OSP.
    Today, the students who testified have spoken directly 
about the positive impact of the OSP on their lives. For them 
and thousands of other District children, the OSP has been a 
lifeline for not just them, but for their families. Without 
this program, as Ron Holassie said, they wouldn't have made it. 
It is just that simple.
    The D.C. Opportunity Scholarship Program sends a clear 
message to families, to children, and to our community: If you 
are low-income, if you are stuck in a school that is failing, 
that is unsafe, and that no amount of money can fix right away, 
we are not going to make an experiment of you, we are going to 
help you; and we are going to do it not 5 years from today, but 
today. We are going to give you a chance at success. And the 
essence of the program is in its name, opportunity.
    The D.C. OSP has provided scholarships along the lowest 
income D.C. children to attend better schools, private schools 
that are mere blocks away from the public schools that long ago 
stopped serving their needs. The program is open to everyone; 
there is no discrimination, there is no cherry-picking.
    And the results are stunning. Graduation rates are 91 
percent for those who use the scholarships. That is 42 percent 
higher than traditional public schools. Improved reading scores 
for students, parental satisfaction is overwhelming. And the 
U.S. Department of Education, as you will hear from Patrick 
Wolf, said that the program was one of the most effective 
programs they have ever studied. By any measure, by any test, 
by any rational standard, this hearing should be about how we 
can expand this program not in Washington, DC, but in other 
parts of the Nation. Instead, by a cruel twist of political 
fate, we are here trying to save the very program that should 
be a model for our country.
    Which leads me to the final point I need to make during 
this testimony: the importance of the OSP in the larger 
national educational reform landscape. Since leaving the 
Council, I have been deeply immersed in the national education 
reform movement. Indeed, I have become a student of what ails 
our schools and what does or what does not work for our kids.
    The truth is we know how to educate children; we know what 
works for them. But often we don't have the will or courage to 
truly put our children first when we make policy that affects 
them. Plus, our over-allegiance to a one-size-fits-all approach 
to system reform has blinded us to the reality of many of 
today's kids' lives. Yes, we need to fix D.C. public schools, 
and many other school districts around the country. But we also 
need to save individual children today, children who can't wait 
for the 3 to 5 year reform plan du jour.
    During the civil rights movement, Dr. Martin Luther King 
talked about the fierce urgency of now. People should not have 
to wait to get their freedom, he argued; they are entitled to 
those freedoms now, not in the distant future.
    Today we are engaged in a similar freedom fight, one 
involving ensuring that all American children receive the 
education that they deserve. Like Dr. King's battle cry, our 
children are entitled to receive a quality education today, not 
tomorrow.
    The D.C. Opportunity Scholarship Program has responded to 
that clarion call by offering a quality education to children 
in this city who otherwise would be trapped in failing schools. 
I applaud those of you on this committee who support its 
reauthorization, and urge all of you to join us in this fight 
to educate each and every child by any means necessary. Thank 
you.
    [The prepared statement of Mr. Chavous follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gowdy. Thank you, Mr. Chavous.
    Dr. Wolf, we will recognize you now for your 5 minute 
opening statement.

                   STATEMENT OF PATRICK WOLF

    Mr. Wolf. Chairman Gowdy, Ranking Member Davis, 
distinguished members, I am pleased to be with you today to 
discuss my professional judgment regarding what we know about 
the D.C. Opportunity Scholarship Program [OSP]. I served as the 
principle investigator of the research team hired by the U.S. 
Department of Education to conduct an independent evaluation of 
the OSP.
    Since lotteries determine if eligible students did or did 
not receive an Opportunity Scholarship, we were able to use a 
gold standard experimental research design to determine what 
impact the OSP had on participants.
    What did we find? The students in our study graduated from 
high school at significantly higher rates as a result of the 
OSP. As portrayed in exhibit 1, using an Opportunity 
Scholarship increased the likelihood of a student graduating by 
21 percentage points, from 70 percent to 91 percent. In 
scientific terms, we are more than 99 percent confident that 
access to school choice through the Opportunity Scholarship 
Program was the reason why OSP students graduated at these much 
higher rates. Students who applied to the program from public 
schools that had been labeled in need of improvement were the 
highest service priority of the OSP. They graduated at a rate 
that was 20 percentage points higher as a result of using a 
scholarship.
    Evidence that students achieved higher test scores due to 
the OSP is somewhat less conclusive than the evidence that they 
graduated at higher rates. Our analysis of test score data 
across all years of the study suggests that OSP students likely 
benefited academically from the program in reading, but 
probably not in math. The statistical probability that the OSP 
reading gains we observed were somehow false discoveries of 
mere statistical noise was 9 percent after 2 years, 1 percent 
after 3 years, and 6 percent after 4 years. We had set 5 
percent uncertainty, or 95 percent confidence, as the critical 
level for judging an observed difference to be a conclusive 
impact of the program. The reading gains from the OSP exceeded 
that high bar in year three of the study, but failed just 
short, by 1 percentage point, in the final year, when hundreds 
of students had graduated out of the study and, therefore, 
shrunk our sample.
    Skeptics might claim that the positive impacts of the 
Opportunity Scholarship Program on reading achievement in the 
final analysis are not real, but there is only a 6 percent 
chance that we would have observed such test score gains for 
the OSP students if in fact the program had no effect. Parents 
were more satisfied with their child's school as a result of 
the OSP. The proportion of parents who assigned a high grade of 
A or B to their child's school was 10 percentage points higher 
based on scholarship use by their child. We can be 99 percent 
confident this was a true impact of the program. Parents also 
viewed their children as safer in school if they participated 
in the OSP.
    The U.S. Department of Education's National Center for 
Education Evaluation [NCEE], has sponsored a total of 14 
experimental studies of education programs, including our study 
of the OSP. Nine of the other 13 evaluations of such 
interventions as student mentoring, reading programs, and 
teacher training reported no statistically significant impacts 
of the program on any student outcome in any year.
    Another student of an after-school initiative found that 
the program had negative effects on student reaching 
achievement that balanced out positive effects on math. The 
clear positive impact of the OSP on high school graduation 
makes it one of only four educational programs to demonstrate 
effectiveness in an experiment sponsored by the NCEE, and it 
generated the second largest positive impact uncovered to date.
    Moreover, the D.C. Opportunity Scholarship Program has 
proven effective at boosting the outcome that matters most: 
educational attainment. President Obama, in a speech to the 
U.S. Chamber of Commerce 1 year ago today, stated emphatically 
that graduating from high school is an economic imperative. 
Both the President and Secretary Duncan have stressed the 
importance of raising the graduation rate, because graduating 
from high school is closely associated with a variety of 
positive personal and social outcomes, including higher 
lifetime earnings and lower rates of unemployment and crime.
    Since each additional high school graduate saves the Nation 
an average of $260,000 due to increased taxes on higher 
earnings and lower law enforcement costs, the 449 additional 
high school graduates due to the operation of the OSP will save 
our Nation over $116 million, meaning the program more than 
pays for itself.
    The research record on the first federally sponsored K-12 
scholarship program is filled with good news: the students 
definitely are graduating at much higher rates; they appear to 
be reading better; parents are more satisfied and live in less 
fear for their child's safety. Now it is up to Congress and the 
President to decide if additional disadvantaged families in our 
Nation's capital should receive access to the benefits from 
this demonstrably successful education program.
    [The prepared statement of Mr. Wolf follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gowdy. Thank you, Dr. Wolf.
    Now we will recognize Ms. North for her 5 minute opening 
statement.

                    STATEMENT OF BETTY NORTH

    Ms. North. Hello, distinguished members of the committee. 
My name is Betty Fenwick-North, and I am the Founder of 
Preparatory School of the District of Columbia.
    The Preparatory School of the District of Columbia is a 
licensed, non-profit, private educational institute. We opened 
our doors in 1984 as a child development center and, over the 
last 26 years, as a result of the needs of our parents and 
students, have expanded from now to then to the 10th grade.
    Our mission is to give our students the academic foundation 
that would allow them to be successful in life in a safe, 
caring, and structured environment that utilized the small 
classroom learning. We provide the intimate attention that a 
lot of today's youth require in order to reach the educational 
aptitude necessary for success. Our wonderful staff is able to 
adopt to each student's unique cognitive learning style, while 
placing emphasis on analyzing, reading, language, articulation, 
and writing. In addition to the academics, it is the aim of The 
Preparatory School of D.C. to assist the character building, 
developing the ability to preserve, integrity, and respect for 
themselves and their community.
    The Preparatory School of D.C. is a family first school. We 
strive to instill good family values in each of our students. A 
majority of our students come from low income families. A 
number of our families have multiple children close to school 
age who would not have the opportunity to receive an education 
from a private institute if it were not for the Opportunity 
Scholarship. The Opportunity Scholarship Program has made it 
possible for many low income families to have more options to 
achieve and acquire quality education.
    Over 150 students have been able to attend The Preparatory 
School of D.C. solely because of the Opportunity Scholarship 
Program, an opportunity that has provided a sound and enriching 
educational experience. Students who attend The Preparatory 
School of D.C. range from those taking AP courses to those 
students who have been diagnosed with learning disabilities, as 
well as those who have been documented disciplinary problems 
that have involved the courts.
    And as many parents, if they were able to testify, would 
all tell you, as they have constantly told us and we have heard 
from them, if it were not for the Opportunity Scholarship 
Program, many of these students would not have been able to 
experience and discovery that they are not just a statistic; 
they are individuals with needs that can and will be met.
    Today's children are our future. Let us help you guide them 
and prepare them for the next level. The more options we 
provide these parents and their families, the better choices 
they can make for their situations; and the better choices they 
make, the better their chances of success.
    In closing, I would like to say that I believe the 
Opportunity Scholarship has opened doors for parents to have 
choices for their children's education, has empowered parents 
with the necessary financial sources to become more involved 
and influential in their children's education, and the 
Opportunity Scholarship has provided students and exposed the 
experience and the academic culture that private, religious, 
secular schools offer. At the end of the day, parents of youth 
who come from financially stable families have choices in which 
schools they would like to attend. Why can't parents of youth 
who come from low income homes also have the same choices 
provided to them through the Opportunity Scholarship?
    Thank you.
    [The prepared statement of Ms. North follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gowdy. Thank you, Ms. North.
    We will recognize Dr. Edelin for her 5 minute opening 
statement.

                   STATEMENT OF RAMONA EDELIN

    Ms. Edelin. Thank you, Chairman Gowdy, Ranking Member 
Davis, Congresswoman Norton, other members of the committee. I 
am Ramona Edelin, executive director of the D.C. Association of 
Chartered Public Schools, the membership organization that 
represents the interest of public charter schools in D.C. I am 
honored to come before you today to share the progress and the 
promise of public charter schools in Washington, DC.
    You may be well aware that the U.S. Congress helped to 
create the environment for charter schools in D.C. with the 
passage of the School Reform Act of 1995. The number of 
students enrolled in D.C. charter schools has grown steadily 
from a few hundred students in 1996 to one of the largest 
concentrations in any city in the country. Currently, our 
charter schools serve about 28,000 students, which comprises 38 
percent of all of the public school children; and this number 
is expected to increase in the fall.
    D.C. charter schools serve students of all ages and 
abilities, from 3 years old to adult learners. During the 2009-
10 school year, 87 percent of charter school students were 
African-American, 9 percent were Latino, 3 percent were 
Caucasian, 65 percent were low income, 10 percent were special 
needs students, and 3 percent were English language learners.
    Families in Washington, DC, have the choice to choose from 
52 unique programs at 93 locations throughout the city. 
Offerings include school programs focusing on bilingual 
immersion; math, science and technology; the performing arts; 
public policy; character and leaders; Latin and the classics; 
virtual and online learning; media arts; Montessori; college 
prep; and a boarding program; among many other options.
    Every charter school offers open enrollment to any D.C. 
resident, regardless of their neighborhood or previous academic 
achievement. Spaces are available on a first-come, first-served 
basis; and when there are more students interested in a school 
than there are spaces available, charter schools must hold a 
lottery so that every student has an equal opportunity for 
those spaces.
    The D.C. Public Charter School Board, the city's 
independent charter authorizer, recently accepted 19 
applications to open new charter schools for fall of 2012. 
Although parent interest and demand remain high, the growth in 
charter school opportunities may have begun to plateau. There 
are fewer waiting lists now than there were in years past; 
however, several of our schools still have hundreds of students 
on their waiting lists.
    Charter school performance and accountability from the 
beginning was clear that the greater autonomy afforded charter 
schools came with a price of greater accountability for 
performance. We see the evidence of what these charter school 
options have meant: the students that would otherwise be 
restricted to their neighborhood schools. We have seen students 
come from one, two, or three grade levels behind in one school 
year. We have seen students excel far beyond their grade level 
and take part in experiences they never imagined possible.
    We have heard testimony from young African-American and 
Latino male students who have said they would not be alive, 
much less graduating from high school and going on to college 
with tens of thousands of dollars in scholarships. Every June 
we witness at least 90 percent of the seniors at Thurgood 
Marshall Academy in Southeast; Washington Math, Science & 
Technology, Friendship Collegiate and Cesar Chavez in 
Northeast; and Maya Angelou and Hospitality in Northwest 
graduate from high school.
    Last year, more than 750 students accepted more than $15 
million in college scholarships. Many of them were the first in 
their families to go to college and many took with them more 
than $100,000. These are statistics we can support and 
perpetuate for generations to come.
    I see my time running out, so I will point out that there 
are consequences to lack of performance. This is mentioned in 
my written testimony. I would like to mention, before closing, 
that under the able leadership of our new mayor, Vincent Gray, 
we are now coming together as one city to leverage the 
strengths and address the weaknesses of both sectors of public 
education in this city as a whole. These are an array of life-
changing options, and performance accountability going along 
with it, that we certainly hope this Congress will choose to 
continue to support.
    Thank you for the opportunity to share.
    [The prepared statement of Ms. Edelin follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gowdy. Thank you, Dr. Edelin.
    Mr. Chavous, you were clear, but I want to give you another 
chance to be absolutely clear so we can shatter this facade 
that supporting the OSP diverts public moneys away from the 
public school system and the charter school system. In your 
opening statement you addressed that. Can you do it one more 
time? Does this program divert any money from the public school 
system or the charter school system?
    Mr. Chavous. No, it does not. When we were in discussions 
about this program, there were a couple of things that are 
relevant to that question. One is we wanted to make sure that 
we lifted all boats. We recognized that we had to proceed on 
two tracks; that while D.C. public schools were struggling and 
the D.C. charter school movement was improving, we wanted to 
make sure that this Federal partnership, this unique Federal 
partnership provided funding for those two sectors at the same 
time that we provided money for the Opportunity Scholarship 
Program.
    We also recognized the argument that some people were 
making that it would take money away. So we held D.C. public 
schools harmless. So for every child that they lost that went 
to the program, they still got the per pupil funding dollars to 
D.C. public school. So at the end of the day they did not lose 
dollars when this program was started.
    Mr. Gowdy. Which raises the very interesting question that 
my colleague from Illinois, Representative Walsh, asked this 
morning, which is who are the opponents of this program and 
what is their motivation? And I know I am asking you to assign 
motives to other people, but you have an experience with this 
program in the District of Columbia that some of us do not. So 
if it not going to divert money and the parents want it and the 
students want it, where is the opposition?
    Mr. Chavous. Well, one other thing about diversion of 
money, at the end of the day, the students will be forced to go 
back to D.C. public schools, it would add money to the bottom 
line. We have to be mindful of that. And in terms of the 
opposition, look, people don't know what they don't know, and 
there is a lot of fear, and there is a lot of other interests, 
to me, that trump the interests of what is best for individual 
children; there is politics, there is socioeconomic dynamics, 
there is this notion of supporting only what we know, what we 
are used to.
    I am of a mind, and I took this position when I became a 
public official chairing the Education Committee on the 
Council, that I would support anything that would help a child 
or a group of children learn; anything. Because, at the end of 
the day, when we have an achievement gap in this country 
between African-American children and children of color and 
white children that over 30 years has yet to be closed, in 
spite of all the investment we have put into education, we have 
to proceed on those two tracks.
    On the one track we need to do what we can to improve our 
public schools, our traditional public schools so that all 
children benefit, but, on the other hand, we need to make sure 
that these individual children, like the two you heard from 
earlier today, that they have a shot at this piece of American 
pie.
    And I am struck by the testimony, when we had a hearing, a 
City Council hearing on the voucher proposal, scholarship 
proposal, when I was on the Council several years ago, by a 
women who testified who said she had one child--she said, Mr. 
Chavous, we have seen you hire some of these new 
superintendents, and when you hired the previous superintendent 
my oldest son was entering seventh grade and the superintendent 
said they needed 3 to 5 years.
    Well, the schools didn't get better and I lost my oldest 
son because he was in a bad school. Now my youngest son is 
about to enter seventh grade and you have another new 
superintendent saying, give us another 3 to 5 years. I need 
this program for that reason, because I need help with my child 
today.
    Mr. Gowdy. Thank you.
    Dr. Edelin, I want to commend you on the work you have done 
with the charter school system and again apologize for my lack 
of familiarity with all things District of Columbia, but there 
were opponents to that program when it began too, weren't 
there?
    Ms. Edelin. Yes, sir, there were some opponents to that 
program, and one of the reasons was that home rule and respect 
for local political and policy leaders and educators in D.C. 
seemed to have been abrogated by some of the earlier proponents 
who went over their heads and went out of their way, in some 
instances, to speak disrespectfully to and about them, and came 
to the Congress; and that did result in some resentment among 
the local people in D.C., political figures, policy figures, 
and educators to the fact of the way that it was done.
    I am happy to say that today much of that early resentment 
has been ameliorated because the successes are so stunning in 
some of our schools with the same population of young people 
everybody in the country is so desperately concerned about. 
That achievement gap has been removed. Those young people do 
have new chances in a public school setting, a public charter 
school setting.
    Mr. Gowdy. Mr. Wolf, my time is up, so I am going to ask 
the question as quickly as I can, and you can answer quickly or 
not, if you want. My colleague this morning cited another 
example of an elected official who was given the opportunity, 
responsibility to make a decision for his children. And I am 
not going to name any names, but lots of high ranking 
government officials, including Members of Congress, have to 
make the decision on private school, public school, home 
school. Why should that only be a decision that rich folk get 
to make?
    Ms. North. Well, personally, I don't think that, as a 
parent, you should be able to make the decision where you want 
your child to go, and through the funding sources that a low 
income parent will be able to receive through the Opportunity 
Scholarship opens that door for them to make that same 
decision, that choice that he made, where his child can go.
    Mr. Gowdy. All right, thank you.
    I will now recognize the distinguished gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman, and let me 
thank each one of our witnesses. I find this discussion to be 
quite intriguing. I have always believed and have always 
understood that the greatest equalizer that has ever existed in 
this country is something called public education, that public 
education is the greatest equalizer that has existed in this 
country.
    Mr. Chavous, I am very familiar with your record. I have 
watched you and observed your work as you were a member of the 
D.C. Council. I have also been aware of your work in terms of 
national education reform and the efforts to provide 
opportunities outside even the District of Columbia, and I 
commend you for it.
    As a matter of fact, I was at one of the schools that you 
have been involved with 2 weeks ago and had a great time with 
the students and some of the faculty there. And let me agree 
with your point when you say that we don't have the will or the 
courage, because I think that the best way to really improve 
failing schools, especially schools that are underperforming, 
is to not only provide a certain amount of resource that they 
need, but also to promote something that I call serious 
parental and community involvement.
    I have a school in my congressional district where just 
yesterday we honored the principal because they have something 
called a 90-90-90 school. All of the kids live in what is 
called the North Lawndale community. All of them, more than 90 
percent of them, are not only low income, but 90 percent or 
more qualify for food subsidies and free breakfasts and 
subsidized lunch. They, right now, happen to be the best 
performing school in the State of Illinois. I used to live on 
the block where they are located, as a matter of fact. The 
houses on one side of the block were torn down to build the 
school. I lived in a house on the other side of the block.
    Some of the fear that some of us have when you start 
talking about all of the different approaches to education, we 
don't want to diminish public education, because every person 
has to go through the public systems; they don't have any 
options about not going to the public systems. So I appreciate 
providing opportunities for some students. But I don't want to 
take away the effort to make sure that every student, no matter 
where he or she might live, have this opportunity for the best 
education that we can provide for them.
    So when you talk about, Mr. Chairman, why some people might 
appear to be opposed, they are not opposed to education, but 
they are afraid that there might be some retraction, that there 
might be some going backward; that diminishing of focus on all 
to the benefit of the few or some may have a tendency to 
produce that kind of trend.
    Do either one of you have any feeling about that?
    Mr. Chavous. First of all, ranking member, thank you so 
much for those comments and your work in terms of helping with 
schools in Chicago. You and I know about some of the things you 
have helped with for those children, and that is much 
appreciated.
    On that point, this is the analogy I like to use. It pains 
me what I see happening not just in D.C. public schools, but 
traditional public schools around the country. We need to focus 
on that. But the analogy I use is the house on fire and we have 
to proceed on different tracks. There are firemen who have to 
go put that fire out and there are firemen who have to go 
inside that burning building and pull some of those kids out. 
And you know what? You may not pull everyone out of that 
building, but you are going to pull out as many as you can to 
stabilize the situation and to save lives.
    The dire deficits of our children, particularly children of 
color in this country, particularly African-American men in 
this country, when some cities like the city I grew up in, 
Indianapolis, 80 percent of the Black boys in their high school 
drop out; in Baltimore it is 70 percent. Because of those 
deficits that exist, I think, yes, we have to put the fire out 
and do what we can to restore and improve our traditional 
public schools.
    But by goodness, Mr. Ranking Member, we need to support any 
and all means that are going to educate even one child. And I 
don't care if it is charter schools, traditional public 
schools, if it is scholarship programs, if it is tax credits, 
if it is Magnet schools, if it is specialty schools. I don't 
care what it is. I really believe that by any means necessary 
should be by any means necessary when it comes to the children 
that we are trying to save. And that is my view.
    And I tell you I think that these parents you hear from, 
they have that view, because when it comes to individual 
children and individual parents who want the best for their 
child or their children, they should not be penalized based on 
zip code. And I think, unfortunately, that is the reality.
    Mr. Davis. Thank you very much.
    Ms. North. Mr. Davis, I must say that we, as--well, I guess 
speaking for the non-public school sector, we do ask for and 
get assistance from the D.C. public schools through the Federal 
entitlement for the kids who attend our schools. So, in return, 
because some of the service, because we are small and private, 
that we can't provide these students, we are still getting 
assistance through the D.C. public school.
    So we are not saying that we don't need the D.C. public 
schools; we are just saying that we need each other. We need 
each other to find out how and ways of bringing our children 
and raising our children as a community, and not just sometimes 
as an individual; we have to do it as a group. And through this 
effort all of us can make it possible for some children. And 
like he said, we might not get all of the kids, but the kids 
that we do provide the services for, we try to do the best that 
we can at those given times.
    Thank you.
    Mr. Davis. Thank you very much.
    Mr. Wolf. Mr. Chairman, can I briefly address the ranking 
member's question?
    Mr. Gowdy. Sure.
    Mr. Wolf. Ranking Member Davis, there is a substantial 
amount of evidence that the pressure of competition from school 
choice programs actually leads traditional public schools to 
improve in response and generate positive outcomes for 
students, thus creating a rising tide that lifts all boats. So, 
really, the idea of expanding choice and improving public 
education is really a false choice. The two can, and often do, 
work in close tandem.
    Ms. Edelin. If I could also, Mr. Chairman, just quickly. 
The charter schools in D.C. explicitly, through our 
Association, seek to find out what works, for whom, under what 
conditions, and to share best practices with DCPS and with 
other urban public school systems around the country. That is 
one of our explicit goals, to benefit all of the children.
    Mr. Gowdy. Yes, ma'am. Thank you.
    I thank the gentleman and I would recognize now the 
gentleman from Arizona, Dr. Gosar.
    Dr. Gosar. Yes. Thank you very, very much.
    I hear a common denominator here involving parents, and 
making that a success story. With that being said, Dr. Edelin, 
do you support the multi-prong aspect that is currently going 
on in D.C. wholeheartedly in the education of our children?
    Ms. Edelin. Dr. Gosar, I am here as executive director of 
the D.C. Association of Charter Public Schools and my message 
is about the charter schools here today.
    Dr. Gosar. When we are talking about the education of 
children and being science-based, outcomes are everything. 
Wouldn't we acknowledge that we have a fundamental mechanism 
that is actually working here, and wouldn't we want to 
acknowledge support for that scholarship type program?
    Ms. Edelin. We support everything that is working to bring 
a quality education to the children of D.C. The only evidence I 
can speak to directly is that of the charter public schools.
    Dr. Gosar. If you are trying to get results based from the 
charter schools, have you not reached out to the private 
schools to find out what is working for them?
    Ms. Edelin. Actually, I did. In my first year in this role, 
I reached out to the independent and private schools to find 
out how they do evaluation and assessment, because improving 
school quality is one of the primary pillars of the work with 
our Association. So I have reached out to them. I have also 
reached out to high performing DCPS schools and to other 
sources around the country for information about best 
practices.
    Dr. Gosar. Would you say, then, in a followup, that they 
are a success model?
    Ms. Edelin. That, I cannot attest to myself. I can attest 
to the quality of the charter schools myself. And I also have 
reached out to our public charter school board, the authorizer, 
to get data they can stand behind with respect to the 
excellence of the schools and the shortcomings of the schools. 
So I can speak to charter schools.
    Dr. Gosar. Well, I am finding this frustrating because, as 
a dentist, I am working on the premise of treatments that work 
and repetitions. So I am frustrated by seeing the modalities of 
vertical learning, and not going horizontally to instill and 
work with parts of education systems that are working. And I 
find it frustrating that I see your educational model going 
vertical and not including those in the dialog horizontally 
with all the rest of the educators. Is that a fair assumption?
    Ms. Edelin. With all respect, sir, I would say no. I have 
reached out and I think the charter schools singularly seek 
collaboration in D.C. across all lines as far as quality and 
best practices are concerned. We have made every effort to form 
what I call a seamless collaboration across all the sectors so 
that all the children of D.C. can get the benefit of the best 
of what is known. It is not always reciprocated, but we will 
keep trying.
    Dr. Gosar. Last question for you. Have you benefited from 
the voucher system to the charter schools and has there been a 
financial, as well as educational, uplift based upon that 
program?
    Ms. Edelin. I am not aware of any financial implications 
for charter schools. I may be wrong about that, but I am not 
aware of any financial implications. And I have not been the 
recipient of, though I have asked, any best practices or any 
information about what is working with particular groups of 
people as we are sorting out within the charter schools with 
the express intention of sharing that information with all of 
the school systems involving our children.
    There is a crisis in this country with children of color 
from impoverished backgrounds and their learning, and we are 
actively engaged in finding out what works and sharing it, and 
I cannot say that we have been the recipient of similar kind of 
outreach.
    Dr. Gosar. Well, have you not received $104 million in 
regards to that because of the three-sector approach?
    Ms. Edelin. From the Federal funding?
    Dr. Gosar. Yes.
    Ms. Edelin. Over 3 years would that be a figure? I am not 
aware of 1 year's worth.
    Dr. Gosar. Since its inception.
    Ms. Edelin. I don't have that figure since its inception. I 
do know charter schools, as a part of the three-sector 
approach, have received funding at least for the 3-years I have 
been with the organization. Yes, sir, they have.
    Dr. Gosar. Thank you very much.
    I yield my time.
    Mr. Gowdy. Thank you, Dr. Gosar.
    We will now recognize the gentlelady from the District of 
Columbia, Representative Holmes Norton.
    Ms. Norton. My questions are mainly directed to Dr. Wolf. I 
do want to thank everyone for your testimony, very important 
testimony for our record.
    I want to correct the record, Mr. Chavous, where you said 
that somehow there was double funding, that D.C. public schools 
were held harmless. To the contrary. That money travels with 
the child, so if a child leaves the D.C. public school system 
and goes to a charter school, that per pupil funding goes to 
the charter school.
    And that, Mr. Wolf, is the only circumstance in which 
competition occurs, because then the public schools are 
competing not only for the child, but for the same funding. 
That is not the case with private schools. There is no 
competition with private schools because you don't have that 
nexus of funding.
    To my colleagues, I want to say the mantra on the other 
side that you have said to my constituents every child deserves 
a private school choice. If that is your view, why have you not 
brought a private school bill to the floor of the House so that 
every child, including the children in your district, can get a 
private school choice? Instead, you are ripping money from the 
public schools of the District of Columbia and of the United 
States of America.
    Mr. Wolf, according to the Department of Education's final 
report on the Opportunity Scholarship Program, 2010 June, that 
is 2 months ago issued, ``There was no evidence that the 
Opportunity Scholarship Program affected student achievement as 
measured by standardized reading and math tests.'' If that is 
the case, how can you claim that education attainment was 
enhanced, given this official report from the government?
    Mr. Wolf. Representative Norton, educational attainment is 
distinct from educational achievement. Educational achievement 
refers to performance on assessments and test scores. 
Educational attainment refers to how far a child goes in the 
educational system, their attainment of years of schooling, 
their attainment of educational degrees. That is the important 
distinction.
    Ms. Norton. Well, I can understand that distinction, but 
you do understand--first let me say, do the children in the 
private school program take the same standardized tests as the 
students at DCPS?
    Mr. Wolf. Representative Norton, for purposes of our 
evaluation, they did take the same test. That was central to 
our evaluation.
    Ms. Norton. They did not take the same tests, performance 
tests that the children in the D.C. public schools have to take 
every year?
    Mr. Wolf. Representative Norton, they did initially; it was 
written into the law that we had to use the same assessments 
used by D.C. public schools at the year of enactment of the 
law, and that was the SAT-9. Later, DCPS changed and adopted a 
criterion reference test. But we continue to administer the 
specified test to both the OSP students and the control----
    Ms. Norton. Well, the answer to my question is no, they do 
not take and have not taken the same standardized tests. The 
charter schools do take the same standardized tests. So when 
you hear comparisons, the comparisons I have made, those are 
real comparisons with real students and, indeed, with students 
who were often of a lower economic level than the students in 
the D.C. public schools.
    Now, you say that there was, in your testimony, 12 
percentage points higher graduation rates of students in the 
private schools from students in the public schools. Are you 
aware that the charter school students have a 25 percent better 
graduation rate than children in the D.C. public schools? How 
would you account for that difference?
    Mr. Wolf. Representative Norton, I am not familiar with 
that particular study, but one-third of the students in our 
control group were actually in D.C. charter schools, and they 
contributed to the overall average graduation rate of 70 
percent for our control group. The OSP students, when you 
factor out those who never used their scholarships, graduated 
at a 91 percent rate.
    Ms. Norton. Figures don't lie and, if I was going to find a 
place for my kid, I would look at these figures very carefully. 
Could I ask you what percentage of children were sent back or 
left the private schools to return to the D.C. public schools?
    Mr. Wolf. Representative Norton, by the end of our 
evaluation, which was 6 years into the initial launch of the 
program, about half of the students offered scholarships in the 
first 2 years were still in a private schools.
    Ms. Norton. So there was a 50 percent dropout rate.
    Mr. Wolf. That is correct, from the program, yes.
    Ms. Norton. What percentage of the students in the schools 
were from the lowest performing schools in the District of 
Columbia?
    Mr. Wolf. Representative Norton, 44 percent of the students 
in the sample that we studied were attending schools in need of 
improvement at the point of applying to the OSP.
    Ms. Norton. So where were the rest from?
    Mr. Gowdy. The gentlelady's time has expired.
    Thank you, Dr. Wolf.
    We will now recognize the ranking member of the full 
committee, the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. First of all, I want to thank all of you for 
your testimony.
    Dr. Edelin, having served on a charter school board in my 
daughter's school, I have people come up to me quite often and 
ask about charter schools and should they start one, how do 
they start one, and I tell them that it is not a simple process 
and that they need to have certain elements on that board or 
else they are going to fail.
    And I think a lot of people underestimate all that it 
takes. You have to have some business people; you have to have 
some fund-raising people; you have to have some people who know 
that it is a corporation; you have to have some people who know 
something about education. So how do you all maximize the 
likelihood that your charter schools will be successful?
    Ms. Edelin. Thank you, Mr. Cummings.
    Mr. Cummings. And be brief, because I have a number of 
questions.
    Ms. Edelin. You are absolutely right. The D.C. Public 
Charter School Board has learned a lot in its 11-year life as 
the authorizer, and the processes for making application, going 
through the review process, having the public meetings, and 
having a charter agreement accepted or not have undergone great 
change based on precisely what you are saying. Governance is 
key. Fiscal management is absolutely crucial. These are all 
nonprofit organizations that enter into a contract with their 
authorizer, which is called a charter.
    But there are lots of other parts, including getting right 
down to the curriculum and the scope and sequence, and who will 
be performing this work and what are the qualifications of the 
leadership, as well as those they will be bringing in to teach. 
It is very much a serious business.
    Mr. Cummings. Now, you heard Mr. Chavous, and, Mr. Chavous, 
I want to thank you for your testimony because it is very 
compelling. And I understand the individual; I understand 
everybody else too.
    Dr. Edelin, when you hear the testimony of Mr. Chavous and 
you heard the testimony of the parents and the young people 
earlier, what do you say to them? I know you are here with 
regard to charter schools, but what do you say to them when Mr. 
Chavous says, you know, this kid--and I have used that argument 
myself, that this kid has one chance to be in the first grade, 
this is it, and one chance to be in the second grade; and if 
they fail to get what they need, it is not just for that 
moment, but it is for a lifetime that they can be held back. So 
what do you say to that? I am just curious.
    Ms. Edelin. I say that in the District of Columbia we have 
53 charter schools on 93 campuses that are working very, very 
hard every day to provide a quality education for every child 
that can get in. I do realize that not every child gets in in a 
given year, but our chances of growing and our viability and 
our sustainability create enormous potential, and I am doing 
everything, Mr. Cummings, in my power to make them the best 
schools they can possibly be.
    Mr. Cummings. So we have waiting lists at most of those 
schools?
    Ms. Edelin. Actually, we do not have waiting lists at most 
of those schools at this moment in time; we have had. But we 
are now beginning just about to plateau. There are some schools 
that have hundreds of students on the waiting lists, but, for 
the most part, it is not the case that most of our charter 
schools have waiting lists right now. There is room in charter 
schools for most of the children in D.C. to get a good public 
school education.
    Mr. Cummings. There is no doubt about it that parental 
involvement is very significant in any school in the 
achievement of young people. At the charter school where our 
kids went, there was a requirement that each parent had to 
volunteer at least something like 70 hours per year. That is a 
lot of time, and the kids had a real advantage in having a 
Congressman because I taught politics, so they got a course in 
politics and law. But I am just wondering do you have those 
kinds of requirements in----
    Ms. Edelin. Many of the charter schools ask parents to sign 
a pledge of commitment, and the students as well, because 
creating a culture in a building is key to its success. I can't 
say, though, Mr. Cummings, I have known any child or parent to 
be dismissed from a school for failure to do that, but there is 
an expectation there, a very high standard there that they are 
asked to buy into, yes.
    Mr. Cummings. Just one quick thing. I would suggest that 
you all take a look at that, because I found, Mr. Chairman, 
that involvement is so significant. I mean, having parents in 
the school makes a humongous, I mean, just a tremendous 
difference. Thank you very much, Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Cummings. It might be well if you 
would go teach politics and law at all the schools in all of 
our jurisdictions. I, for one, would love to have you in South 
Carolina.
    We will now recognize the distinguished gentleman from 
Missouri, Mr. Clay.
    Mr. Clay. Thank you so much, Mr. Chairman. Thank you for 
conducting this hearing. I would also like the ranking member 
to come to my district to teach politics too.
    Let me talk about my district first, Missouri, the St. 
Louis public schools. Right now a debate is raging in the 
Missouri legislature about private school vouchers and just how 
much we take from public schools to create these private school 
vouchers. And we can get into the issue of whether that is fair 
or not; whether it is a viable option for parents and students, 
and we can talk about that if we have time. But I know it would 
take thousands of dollars from each students and would have a 
devastating effect on the St. Louis public schools.
    Let me start off with Dr. Edelin. Thank you for your 
excellent testimony regarding the history and growth of D.C. 
charter schools. I am interested in several parts of your 
testimony. One is, doctor, can you give us your assessment and 
examples of graduation rates at some of the area charter 
schools?
    Ms. Edelin. Yes, sir. Thank you, Mr. Clay. And I did 
included some of that in the testimony. What I did was average 
it out in some of our schools in every sector of the city, 
Southeast, Northeast, Northwest. We have at least 90 percent. 
But I want you to know that some of those schools are as high 
as 96 and 97 percent, well above the national average of high 
school graduation, and going to school with millions of dollars 
in college scholarships.
    Mr. Clay. OK, so they do go on to college.
    Ms. Edelin. Yes, sir.
    Mr. Clay. And they are prepared for college. How are the 
reading levels and the math levels?
    Ms. Edelin. This is something I would like to make very 
clear. The District of Columbia has some excellent traditional 
public schools, particularly in the affluent wards. We also 
have schools that are selective in that you have to audition 
and you have to have a certain grade point average in order to 
get in. But if you take those off the table, the affluent 
schools and the selective schools, and you just look at the 
schools that serve poor children of color, the charter schools 
outperform DCPS two to one with respect to reading and math by 
the time they get to middle and high school.
    Mr. Clay. And you know that through the assessment?
    Ms. Edelin. The only thing we have to go by is the year-end 
tests. I don't think that is adequate. I personally am a 
proponent of looking at growth gains in children, and I hope 
that the ESEA reauthorization will look more at growth gains, 
but right now that is all we have to look at, yes.
    Mr. Clay. Now, would you be able to supply the committee 
with statistics on matriculation and college acceptance?
    Ms. Edelin. Yes, sir. I would be happy to. I can't do it 
here and now, but I would be happy to, yes, sir.
    Mr. Clay. I know. In writing. We would appreciate it.
    Ms. Edelin. Certainly.
    Mr. Clay. Let me ask Mr. Chavous. Tell me about how D.C. 
charter schools stack up to D.C. public schools. If you had to 
choose one or the other for your children, which one would it 
be?
    Mr. Chavous. Well, what I did for my children was looked at 
individual schools. I wasn't focused on the system, or private 
versus public, as much as what fit the best educational needs 
of my individual children. And I think that is what parents 
look to have happen for them as well.
    Traditionally, I hear all this talk about charter schools. 
I have to say, parenthetically, that scholarships and vouchers 
are charter schools' best friends, because when I was chairing 
the Education Committee and I started charter schools or helped 
push charter school funding, I was getting worn out by a lot of 
people who now are talking about charter schools like they are 
doing great work. And I think that is progress because people 
now understand that providing options and choice matters.
    I think, as Dr. Edelin knows, charter schools have 
generally outperformed D.C. public schools across the board. 
But at the end of the day, when it comes down to parents having 
choices, you know, in this global, multifaceted, technological 
age, we need to give more choices to parents, not less. More 
matters. I mean, this is a situation where we need to recognize 
that children respond to different learning modalities.
    But the problem is that rubs us against our historical 
perspective where we are locked into this one-size-fits-all 
paradigm that is a cookie cutter approach that you matriculate 
a certain way according to age and divide it according to class 
size and all this stuff. Well, at the end of the day, the 
learning that we know is going to take place over the next 20, 
30 years, is going to be wholly unlike anything any of us in 
this room can relate to.
    So, to answer your question, I think charter schools are 
generally done well because they look at things more with a 
forward lens and is more innovative and creative in its output. 
And in terms of how it relates to this hearing, that is why we 
promoted this three-sector strategy, so that we would have a 
whole host of options for parents to choose from.
    Mr. Clay. OK, thank you for your response.
    I yield back, Mr. Chairman.
    Mr. Gowdy. Yes, sir. I thank the gentleman.
    On behalf of all of us, I want to thank this panel for your 
professionalism, for your expertise, frankly, for your 
collegiality toward one another and toward this subcommittee.
    We will be adjourned.
    And I would ask the four if you can linger for about 30 
seconds; I know some of us would like to come thank you in 
person.
    This meeting is adjourned.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Dan Burton and Hon. Elijah 
E. Cummings follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
